U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                          Review of the Department of
                        Justice’s Implementation of the
                         Sex Offender Registration and
                                Notification Act

                                        December 2008




                                      I-2009-001
                                 EXECUTIVE DIGEST


INTRODUCTION

       This report examines the Department of Justice’s (Department)
implementation of Title I of the Adam Walsh Act, the Sex Offender
Registration and Notification Act (SORNA), which sets forth specific
responsibilities for the Department in identifying, arresting, and prosecuting
sex offenders who have failed to register or update a registration. 1 Sex
offenders who do not register or update registrations are considered non-
compliant and are subject to prosecution under SORNA when federal
jurisdiction can be established. When a warrant is issued for a non-
compliant sex offender, the subject is referred to as a fugitive sex offender.
Records on convicted, non-compliant, and fugitive sex offenders are
maintained within the national sex offender registration system.

       The national sex offender registration system is composed of two
registries operated by different Department components. One is the Federal
Bureau of Investigation’s (FBI) National Sex Offender Registry (NSOR), which
is part of the National Crime Information Center (NCIC). NCIC is an
information system that provides law enforcement agencies with around-
the-clock access to federal, state, and local crime data, including criminal
record histories and wanted and missing person records. The other is the
Office of Justice Programs’ (OJP) Dru Sjodin National Sex Offender Public
Registry Website (NSOPR), which is an online portal linked to all states’ sex
offender public registries. Using NSOPR, members of the public can access
information on sex offenders in any of the states’ public registries. The
information in both the FBI’s NSOR and OJP’s NSOPR portal is provided by
the states, territories, federally recognized Indian tribes, and the District of
Columbia (collectively referred to in this report as “jurisdictions”). The
inclusion, accuracy, and integrity of the data are ultimately the
responsibility of those jurisdictions.

        At the state level, sex offender registration requirements and penalties
for failing to register vary by jurisdiction, and the requirements for
maintaining a registration are based on the nature of an offender’s crime
and on state law. At the federal level, records of three categories of sex
offenders are included in the FBI’s NSOR: individuals convicted of criminal

        1 The Adam Walsh Child Protection and Safety Act of 2006 (Adam Walsh Act), Pub.

L. No. 109-248, 120 Stat. 587 (codified primarily in sections of 42 U.S.C. as well as 10 and
18 U.S.C.), was signed on July 27, 2006. SORNA is codified at 42 U.S.C. § 16901.


U.S. Department of Justice                                                              i
Office of the Inspector General
Evaluation and Inspections Division
offenses against minors, individuals convicted of sexually violent offenses,
and individuals who are designated as sexually violent predators.

       SORNA requires convicted state and federal sex offenders to register
within 3 business days in the states in which they will live, work, and
attend school after being released from incarceration or, in cases in which
there is no term of incarceration, within 3 days of being sentenced. Once
registered, convicted sex offenders are required to verify their registration
information periodically with jurisdiction authorities. The jurisdiction
registration authorities are also required to alert the FBI when they receive
new or updated registration information. Absent an extension, state,
territorial, and tribal jurisdictions must implement SORNA requirements by
July 27, 2009 – 3 years after the date of SORNA’s enactment. The
Department’s only mechanism for enforcing state and territorial compliance
with SORNA requirements is to reduce the grant funding the Department
provides by 10 percent. The sanction for a tribe is that the authority and
responsibility for implementing SORNA are transferred from the tribe to the
state in which the reservation is located.

        At the federal level, the responsibility for implementing various
elements of SORNA is assigned to several Department components. Two
units within OJP, the Bureau of Justice Assistance (BJA) and the Office of
Sex Offender Sentencing, Monitoring, Apprehending, Registering, and
Tracking (SMART Office), are responsible for implementing the required
changes to the NSOPR portal and assisting jurisdictions with required
enhancements to their registries. The FBI is responsible for maintaining the
National Sex Offender Registry. The U.S. Marshals Service (USMS) has been
designated by the Department as the lead federal agency for investigating
non-compliant and fugitive sex offenders and for assisting states in
enforcing their registration requirements. U.S. Attorneys’ Offices can
pursue charges against sex offenders who are not in compliance with
registration requirements resulting from prior federal convictions. They can
also pursue charges against sex offenders who are not in compliance with
registration requirements resulting from state convictions if those offenders
travel in interstate or foreign commerce. The Department’s Criminal
Division’s Child Exploitation and Obscenity Section assists federal attorneys
with prosecutions of fugitive sex offenders.

      The Office of the Inspector General (OIG) conducted this review to
assess the Department’s efforts to implement SORNA requirements and to
assess whether those efforts have increased the number of fugitive sex
offenders investigated, arrested, and prosecuted by the Department. In this
review, we analyzed law enforcement and sex offender registration data from
January through March 2008. We also examined trends in fugitive sex

U.S. Department of Justice                                                ii
Office of the Inspector General
Evaluation and Inspections Division
offender investigations, arrests, and prosecutions during fiscal year
(FY) 2004 through FY 2007, and conducted interviews at the Department
components involved with implementation of SORNA.

RESULTS IN BRIEF

       Our report examines three aspects of the Department’s
implementation of SORNA. First, although the Department did not issue
guidance to the components on implementing specific SORNA requirements,
we found that the components have begun to address each of the
requirements but have yet to fully implement all of them. For example, the
Department is still working to track sex offenders entering and leaving the
country and to enhance the Department’s Project Safe Childhood initiative
to combat the proliferation of crimes against children, including Internet-
based crimes. Based on the progress to date, we believe the Department
components are on track to complete the specific tasks they are assigned
under SORNA by July 2009. But despite the Department’s assistance to
state, territorial, and tribal jurisdictions in implementing SORNA, we believe
the jurisdictions will not fulfill their SORNA requirements by July 2009.

       Second, we found that information in the national sex offender
registries is incomplete and inaccurate and therefore the registries are not
reliable tools for law enforcement and the public. For example, we found
that registries were missing records, did not always identify known fugitives,
and did not always contain sufficient information to enable law enforcement
and the public to accurately identify sex offenders.

       Third, although implementation of SORNA is not yet complete, we
found that the USMS has increased federal investigations and arrests of
fugitive sex offenders and has increased assistance to state agencies with
fugitive sex offender investigations and arrests.

      The following sections of this Executive Digest describe our findings in
the above three areas in more detail.

Status of SORNA Implementation

       We found that although the Department’s Office of Legal Policy
prepared a memorandum in 2006 on the implementation of SORNA, the
Department issued that document to only one of the five components
involved in SORNA’s implementation. Moreover, because the Department
has no current plan or timeline to guide the components’ SORNA
implementation process, the components have set their own pace and
reallocated existing resources to the effort. Nonetheless, we found the

U.S. Department of Justice                                                iii
Office of the Inspector General
Evaluation and Inspections Division
components have made significant progress in implementing SORNA
provisions. However, despite the Department’s assistance to state,
territorial, and tribal jurisdictions in implementing SORNA, we believe the
jurisdictions will not fulfill their SORNA requirements by July 2009. Below
is a summary of what each component has done to date and what remains
to be done to fully implement SORNA’s requirements:

      OJP has issued software to all jurisdictions to connect public sex
       offender registries to the NSOPR portal as required by SORNA,
       although not all jurisdictions have installed the software. The SMART
       Office, which OJP created in response to SORNA, is assisting
       jurisdictions in implementing enhancements to their registration
       systems. Although OJP took 2 years to issue SORNA implementation
       guidelines to the jurisdictions, on July 1, 2008, the SMART Office
       issued the guidelines as required by SORNA. It also issued a
       checklist to provide additional assistance to jurisdictions with SORNA
       compliance and to assist the SMART Office in determining whether
       jurisdictions are in compliance with individual provisions of SORNA.
       The checklist provides guidance on fulfilling SORNA requirements,
       such as the collection of additional registration information of all
       SORNA-qualifying convicted sex offenders and ensuring non-
       compliant and fugitive sex offender information is entered into the
       FBI’s NSOR.

      The United States Attorneys’ Offices and the Criminal Division are
       required under SORNA to assign at least eight Assistant United States
       Attorneys to support the Project Safe Childhood initiative. They have
       exceeded the requirement. The Department has assigned additional
       resources to this effort, including 43 new Assistant United States
       Attorneys, to prosecute federal fugitive sex offenders, child
       pornography, and child exploitation crimes. From the enactment of
       SORNA through FY 2007, federal attorneys prosecuted 162 fugitive
       sex offenders for registration violations.

      The USMS has met its SORNA requirements by significantly
       increasing the number of investigations it conducted into fugitive sex
       offenders (discussed below). Although not specifically required under
       SORNA, the USMS also has established a new investigative branch
       and re-assigned existing resources to increase federal investigations of
       fugitive sex offenders. In July 2008, the USMS received funding for a
       National Sex Offender Targeting Center that it plans to establish to
       supplement and coordinate state and local efforts to identify and
       arrest fugitive sex offenders.


U.S. Department of Justice                                                 iv
Office of the Inspector General
Evaluation and Inspections Division
      The FBI has met the SORNA requirement that it provide electronic
       updates to state sex offender registration authorities when records
       change in the National Sex Offender Registry it maintains as part of
       NCIC. The FBI has also issued guidance to allow access to national
       crime information databases for personnel at the National Center for
       Missing and Exploited Children (NCMEC) and social service agencies,
       as required by SORNA. While these SORNA requirements have been
       met, we found Deputy Marshals cannot use NCIC to analyze the
       information in NSOR or the NCIC Wanted Persons File in its entirety
       to identify all suspected fugitive sex offenders for investigation. This
       problem stems from the fact that NCIC is not an analytical database,
       but rather an investigative tool used to obtain criminal justice records
       on a case-by-case basis. To address the problem, FBI officials told us
       that they would provide the USMS with a complete download of data
       in NSOR and the NCIC Wanted Persons File for use in fugitive sex
       offender investigations if the USMS requested it.

Accuracy, Completeness, and Reliability of the National Sex Offender
Registries

       We found that the registries that make up the national sex offender
registration system – the FBI’s National Sex Offender Registry (NSOR) and
the state public sex offender registries accessed through OJP’s National Sex
Offender Public Registry Website (NSOPR) – are inaccurate and incomplete.
As a result, neither law enforcement officials nor the public can rely on the
registries for identifying registered sex offenders, particularly those who are
fugitives.

       Specifically, the states have not entered records on approximately
22 percent of their registered sex offenders into NSOR and have not
identified sex offenders who have failed to maintain a current registration.
We also found that states do not consistently enter information into NSOR
such as social security numbers, driver’s license numbers, and vehicle
identification numbers.

       We found several causes for the missing and incomplete records.
Prior to the Adam Walsh Act, states were not required to enter information
on their registered sex offenders into NSOR. Further, some records that
states attempted to enter were rejected because they lacked information
required by NCIC. Also, some state registries are not fully compatible with
NCIC, causing records to be lost when those states attempt to update NSOR
records.



U.S. Department of Justice                                                 v
Office of the Inspector General
Evaluation and Inspections Division
      FBI audits of state registries found weaknesses similar to those we
found in our analysis, and the NCIC Advisory Policy Board (which must
authorize changes to NCIC) has approved changes to correct the
weaknesses. The FBI has yet to implement the changes. However, the FBI
has discontinued its audits of state registries pending state implementation
of SORNA requirements and the Department’s issuance of its SORNA
guidelines.

       Similarly, we found that the state sex offender records accessed
through OJP’s NSOPR portal are inconsistent and incomplete, and they do
not provide reliable information to identify non-compliant sex offenders.
Because of these weaknesses, federal, state, and local law enforcement
officers who use the NSOPR portal to query the public state registries during
investigations may not obtain accurate information on a suspect’s
registration or fugitive status. In addition, the public cannot use the state
information available through the NSOPR portal as a reliable tool to identify
all registered and non-compliant sex offenders in their communities.

      When implemented, SORNA guidelines that OJP issued to the
jurisdictions in July 2008 should improve the quality of data in the sex
offender public registries, but the guidelines will not correct all of the
problems we noted. As a result, members of the public will not have the
information they need to assess the threat posed by sex offenders in their
communities.

Trends in the Department’s Investigation, Arrest, and Prosecution of
Fugitive Sex Offenders

       We found that over the last 4 fiscal years, the Department has
increased the number of federal investigations, arrests, and prosecutions of
sex offenders for failure to register or update a registration, which under
SORNA is a federal felony. The Department also increased its assistance to
states for their fugitive sex offender investigations.

       Overall, between FY 2004 and FY 2007, the USMS conducted 5,910
fugitive sex offender investigations, with an increasing number of
investigations conducted each fiscal year, from 390 in FY 2004 to 2,962 in
FY 2007 (Table 1). During this period, the USMS’s investigations based on
federal warrants increased from 9 to 341, while its investigations based on
state warrants increased from 381 to 2,621. Further, between FY 2004 and
FY 2007, the USMS arrested 4,503 fugitive sex offenders, with an increasing
number of arrests made each fiscal year, from 149 to 2,779. In those years,
the USMS’s arrests based on federal warrants increased from 0 to 200,
while its arrests based on state warrants increased from 149 to 2,579.

U.S. Department of Justice                                               vi
Office of the Inspector General
Evaluation and Inspections Division
Finally, since the enactment of SORNA in mid-2006 through March 2008,
U.S. Attorneys’ Offices accepted 162 cases for prosecution under SORNA
and declined 53 cases. Of the 53 declined cases, at least 15 were
prosecuted at the state or local level. 2

    Table 1: Summary of Sex Offender Investigation and Arrest Data,
                     FY 2004 through FY 2007

                              FY 2004      FY 2005     FY 2006       FY 2007       Total
Federal investigations               9           7           38          341         395
State investigations               381        817         1,696        2,621       5,515
Total investigations              390         824        1,734         2,962      5,910
Federal arrests                      0           1            7          200         208
State arrests                      149        501         1,066        2,579       4,295
Total arrests                     149         502        1,073         2,779      4,503
Source: USMS.

CONCLUSIONS AND RECOMMENDATIONS

      In the 2 years since SORNA was enacted, the Department has made
progress in implementing the law’s requirements, but has not completed
implementation of all of the Act’s requirements. Although the Department
prepared a memorandum in 2006 regarding implementation of SORNA
requirements, we determined the memorandum reached only one of several
relevant components, and some of the steps to implement SORNA have not
been completed by Department components. Moreover, we found that the
Department has no current plan to guide the components’ efforts to
implement SORNA requirements.

       At the component level, OJP has issued software to all jurisdictions to
connect public sex offender registries to the NSOPR portal as required by
SORNA, and OJP’s SMART Office has continued to help jurisdictions
enhance their registry systems. However, the SMART Office took 2 years to
issue implementation guidelines to the jurisdictions. The jurisdictions have
until July 27, 2009, to implement SORNA. In our review, we found that
information in the public registries accessed through the NSOPR portal is
currently inconsistent and inaccurate. As of November 2008, all states had



       2     Data on the ultimate disposition of the remaining 38 declined cases was not
available.


U.S. Department of Justice                                                                 vii
Office of the Inspector General
Evaluation and Inspections Division
connected their public registries to the NSOPR portal, but three territories
and all federally recognized Indian tribes had not made such connections.

       We also found that other Department components have taken various
steps to implement SORNA. The United States Attorneys’ Offices and
Criminal Division have assigned new and existing resources to prosecute
federal fugitive sex offenders who fail to register or update a registration.
The USMS has established a new investigative branch and re-assigned
existing resources to increase federal investigations. And the FBI has met
SORNA requirements that it provide both electronic notification updates to
the NSOR database used by law enforcement and wider access to national
crime information databases.

       However, we found that neither the FBI’s NSOR nor OJP’s NSOPR
portal contain complete and accurate listings of all of the sex offenders in
the United States who are required to register. We believe that the
Department and its components should provide additional assistance to
jurisdictions to ensure that information on registered, non-compliant, and
fugitive sex offenders is included in the national registries. Specifically, we
make the following recommendations to the Department’s components:

   1. The FBI should ensure NSOR has more complete and accurate
      information by designing and implementing a new audit of jurisdiction
      registries’ compliance with FBI NSOR procedures and with the SORNA
      guidelines.

   2. The FBI should implement the Advisory Policy Board-approved
      changes to NSOR that specifically provide information regarding
      fugitive status.

   3. The USMS should obtain NSOR and the NCIC Wanted Persons File
      data downloads from the FBI and use that information to manage and
      conduct fugitive sex offender investigations.




U.S. Department of Justice                                                  viii
Office of the Inspector General
Evaluation and Inspections Division
                                       TABLE OF CONTENTS


BACKGROUND ........................................................................................ 1

PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW ......... 14

RESULTS OF THE REVIEW................................................................... 16

    Section I: Department Efforts to Implement SORNA .......................... 16

    Section II: Accuracy, Completeness, and Reliability of
       the National Sex Offender Registries.............................................. 43

    Section III: Trends in the Department’s Investigation, Arrest, and
       Prosecution of Non-Compliant Sex Offenders................................. 62

CONCLUSIONS AND RECOMMENDATIONS ......................................... 74

APPENDIX I: ACRONYMS .................................................................... 76

APPENDIX II: INFORMATION SUBMITTED TO THE SMART OFFICE
    FOR REVIEW ................................................................................ 77

APPENDIX III: NCMEC MAP OF REGISTERED SEX OFFENDERS......... 78

APPENDIX IV: OFFICE OF LEGAL POLICY ADAM WALSH ACT
    IMPLEMENTATION MEMORANDUM ............................................. 79

APPENDIX V: STATE-BY-STATE BREAKDOWN OF REGISTERED SEX
    OFFENDERS IN PUBLIC REGISTRIES AND THE FBI’S NSOR........ 83

APPENDIX VI: FBI RESPONSE ............................................................. 86

APPENDIX VII: OIG ANALYSIS OF FBI RESPONSE ............................... 91

APPENDIX VIII: OJP RESPONSE .......................................................... 93

APPENDIX IX: OIG ANALYSIS OF OJP RESPONSE .............................. 95

APPENDIX X: USMS RESPONSE .......................................................... 96

APPENDIX XI: OIG ANALYSIS OF USMS RESPONSE ......................... 100




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND


Introduction

       This report examines the Department of Justice’s (Department)
implementation of particular provisions in the Adam Walsh Child Protection
and Safety Act of 2006 (Adam Walsh Act). 3 Specifically, we reviewed the
Department’s enforcement of requirements that sex offenders establish and
maintain registrations. Title I of the Adam Walsh Act, the Sex Offender
Registration and Notification Act (SORNA), sets forth specific roles in
implementing the Act for the Department and its components – the Office of
Justice Programs (OJP), the United States Marshals Service (USMS), the
Federal Bureau of Investigation (FBI), the United States Attorneys’ Offices
(USAO), and the Criminal Division. These roles include identifying,
arresting, and prosecuting sex offenders who have failed to register or
update a registration. Sex offenders who fail to register or update a
registration are referred to as non-compliant. If a warrant has been issued
for their arrest, they are referred to as fugitive sex offenders.

       SORNA also places sex offender registration requirements on state,
territorial, and tribal jurisdictions – discussed later in this report – that
must be implemented within 3 years of SORNA’s enactment (by July 27,
2009). Other than setting two reporting deadlines, SORNA specifies no
implementation dates for the requirements it places on the Department and
its components. However, SORNA requires the Department to assist the
jurisdictions with implementation of their SORNA obligations.

      The Office of the Inspector General (OIG) conducted this review to
determine what efforts the Department has made to implement the SORNA
requirements imposed on the Department and whether those efforts have
increased the number of fugitive sex offenders investigated, arrested, and
prosecuted by the Department. While the jurisdictions’ efforts to implement
SORNA were beyond the scope of our review, we examined the efforts of
Department components to assist the jurisdictions with meeting their
SORNA requirements.

       This background section describes the history of federal sex offender
legislation, the roles played by various organizations in implementing

       3 The Adam Walsh Child Protection and Safety Act of 2006, Pub. L. No. 109-248,

120 Stat. 587 (codified primarily in sections of 42 U.S.C. as well as 10 and 18 U.S.C.), was
signed on July 27, 2006. SORNA is codified at 42 U.S.C. § 16901.


U.S. Department of Justice                                                               1
Office of the Inspector General
Evaluation and Inspections Division
SORNA, the federal registry system, the registration and notification
process, registration requirements, and registration enforcement measures.

Federal Sex Offender Registration Legislation

       In 1994, the Jacob Wetterling Crimes Against Children and Sexually
Violent Offender Registration Act (Wetterling Act) required states to establish
registries that included information about offenders convicted of a “criminal
offense against a victim who is a minor” or a “sexually violent offense.” 4
“Sexually violent offenses” include rape, non-consensual sexual assault,
aggravated sexual abuse, or similar acts that involve engaging in physical
contact with another person with the intent to commit sexual abuse. The
Wetterling Act also made it a federal misdemeanor offense for sex offenders
to not maintain their registrations when they move from one state to
another.

       In May 1996, a federal law known as Megan’s Law amended the
Wetterling Act to increase the public’s access to information about
registered sex offenders. 5 The law gave states broad discretion in
establishing criteria for disclosing information on registered sex offenders.
The law also allowed states to determine who should be notified about sex
offenders, under what circumstances, and about which offenders. It
required states to establish a community notification system to assist law
enforcement in investigations and to enable citizens to receive information
about registered sex offenders. 6

       In October 1996, the Pam Lychner Sexual Offender Tracking and
Identification Act (Lychner Act) required the federal government to establish
a national sex offender registry. 7 In response, the FBI created the National
Sex Offender Registry (NSOR) to assist in the state-to-state tracking and
management of sex offenders. NSOR, which contains sex offender


       4The Wetterling Act was passed as part of the Federal Violent Crime Control and
Law Enforcement Act of 1994, codified at 18 U.S.C. § 1033 (1994).

       5  Amended Section 170101(d) of the Violent Crime Control and Law Enforcement Act
of 1994 (42 U.S.C. § 14071(d)).

        6 A community notification system is a way for state and local governments to

convey information to the public about registered sex offenders. Community notification
can be done through state or local public registry websites, newspapers, pamphlets, or
e-mail.

       7   42 U.S.C. § 13701.


U.S. Department of Justice                                                               2
Office of the Inspector General
Evaluation and Inspections Division
registration data from each state and territory, is described in more detail
later in this section.

       The Lychner Act further allowed the FBI to conduct sex offender
registration and community notifications in states that did not have systems
in place for such purposes. The Lychner Act required sex offenders moving
to a new state or establishing residence upon being released from a prison
or being placed on parole, supervised release, or probation to notify the FBI
or state authorities within 10 days of the move.

       In July 2006, the Adam Walsh Act established minimum standards
for sex offender registration and notifications in the United States and its
territories. The minimum standards include registry requirements for
jurisdictions and sex offenders, information required to be included in the
registration, duration of registration requirements, periodic in-person
verifications, and the duty to notify sex offenders of registration
requirements. The SORNA portion of the Adam Walsh Act also established
requirements to ensure that convicted sex offenders are notified of their
registration obligations. SORNA also reaffirmed the Lychner Act
requirement that the FBI create and maintain NSOR and made violation of
sex offender registration requirements a federal felony. 8

Organizations Involved in Implementing SORNA

      Within the Department, five main components – OJP, the USMS, the
FBI, the USAOs, and the Criminal Division – have been involved in
implementing SORNA. In addition, the National Center for Missing and
Exploited Children (NCMEC), a private, non-profit organization that receives
most of its funding from federal sources, assists the Department with
investigating fugitive sex offenders. The following sections describe the
missions of these organizations and their roles in locating, arresting, or
prosecuting fugitive sex offenders.

Office of Justice Programs

      OJP’s mission is to provide state and local agencies with funds and
technical assistance to help develop the nation’s capacity to prevent and
control crime, improve the criminal and juvenile justice systems, increase
knowledge about crime and related issues, and assist crime victims. Two
OJP units are involved in implementing SORNA: the Bureau of Justice


       8   See 18 U.S.C. § 2250 (2006).


U.S. Department of Justice                                                 3
Office of the Inspector General
Evaluation and Inspections Division
Assistance (BJA) and the Office of Sex Offender Sentencing, Monitoring,
Apprehending, Registering, and Tracking (SMART Office).

       The BJA’s mission includes providing criminal justice policy, training,
and technical assistance and acting as the Department’s liaison to national
organizations on these issues. The BJA also coordinates and administers
all state and local grant programs, including those related to sex offender
programs. In 2005, before SORNA was passed, the BJA created the
National Sex Offender Public Registry (NSOPR). The NSOPR is not a
database, but rather a “portal” website through which the public can access
and search individual jurisdictions’ public sex offender registries.

       In response to Section 145 of SORNA, the Department also designated
BJA to coordinate the design and implementation of two new information-
sharing systems: the Internet Crimes Against Children Virtual
Headquarters and the Cyber Safe Deconfliction systems. According to a
memorandum issued by the Department’s Associate Attorney General, the
Crimes Against Children Virtual Headquarters system will give federal,
state, and local law enforcement a secure online environment in which to
collaborate on investigations, including communication tools and online
training resources. The memorandum states that the Cyber Safe
Deconfliction system is designed to provide more effective coordination for
overlapping investigations, enhance sharing of tactical and strategic
intelligence, and provide an opportunity for enhanced collaboration between
Internet Crimes Against Children task forces and other computer crime
investigators.

       The SMART Office – established under Section 146 of SORNA –
provides guidance and technical assistance to states, territories, Indian
tribes, local governments, and public and private organizations. Since mid-
2008, the SMART Office has maintained the NSOPR portal (which the BJA
originally created). The SMART Office also tracks important legislative and
legal developments related to sex offenders and administers grant programs
related to the registration, notification, tracking, and monitoring of sex
offenders. The Director of the SMART Office was appointed in December
2006 and, since January 2008, supervises a six-member staff. In response
to SORNA, on July 1, 2008, the SMART Office issued national guidelines to
assist the state, territorial, and tribal jurisdictions in becoming compliant
with SORNA provisions by July 27, 2009. 9


       9 When the Attorney General announced the proposed guidelines on May 17, 2007,

he also announced that the Department was providing $25 million in assistance for
communities to implement the Adam Walsh Act.


U.S. Department of Justice                                                        4
Office of the Inspector General
Evaluation and Inspections Division
United States Marshals Service

       The USMS’s mission includes arresting violent fugitives; providing
federal courthouse security; protecting judges, witnesses, jurors, and
members of the public; and transporting and detaining federal prisoners.
The Department has designated the USMS as the lead federal agency in
investigating federal registration violations by sex offenders and in assisting
states in enforcing their registration requirements. Pursuant to SORNA, the
USMS: (1) assists state, local, tribal, and territorial authorities in locating
and arresting fugitive sex offenders; (2) investigates violations of
18 U.S.C. § 2250 (federal registration violations) and related offenses; and
(3) assists in identifying and locating sex offenders who have relocated as
the result of a major disaster.

       To manage investigations conducted by its district offices and task
forces, in 2006 the USMS established at its headquarters a Sex Offender
Investigations Branch. The USMS also arrests fugitive sex offenders
through its Operation FALCON (Federal and Local Cops Organized
Nationally). FALCON, created in 2005, is a week-long operation typically
conducted once a year that combines the resources of federal, state, county,
and city law enforcement agencies to locate and arrest fugitives wanted for
all types of violent crimes. The USMS emphasized arresting sex offenders
that had outstanding warrants as well as other violent fugitives. FALCON
2006 was the first FALCON operation to enforce failure to register or update
a registration as a federal felony under 18 U.S.C. § 2250. From 2006
through 2008, FALCON has resulted in 1,654 arrests for federal, state, and
local sex offender registration violations. The USMS has also conducted
several operations at the district level specifically designed to apprehend
fugitive sex offenders and has encouraged its districts to coordinate these
operations with local law enforcement agencies.

Federal Bureau of Investigation

       Under SORNA, the FBI is responsible for maintaining the National Sex
Offender Registry. Unlike OJP’s NSOPR portal, the FBI’s NSOR is a
database that contains information on sex offenders from federal
investigations as well as information that is submitted by the states. NSOR
is a part of the FBI’s National Crime Information Center (NCIC) and is
accessible only to authorized users (mostly law enforcement agencies). In
maintaining NSOR, the FBI’s Criminal Justice Information Services Division
provides support to the states to address weaknesses in their transfer of
information to NSOR. We discuss NSOR later in this section.



U.S. Department of Justice                                                 5
Office of the Inspector General
Evaluation and Inspections Division
       In addition, the FBI’s Crimes Against Children unit investigates and
arrests fugitive sex offenders as part of its mission to decrease the
vulnerability of children to sexual exploitation; develop a nationwide
capacity to provide a rapid, effective, and measured investigative response to
crimes against children; and enhance the capabilities of state and local law
enforcement investigators through programs, investigative assistance, and
task force operations. Because the Department designated the USMS as the
lead agency for investigating fugitive sex offenders, on November 17, 2006,
the FBI issued guidance that instructed its Special Agents to initiate fugitive
sex offender investigations only when doing so would support an
investigation of another crime.

United States Attorneys’ Offices

       U.S. Attorneys are the chief federal law enforcement officers within
the 94 districts they serve. The federal prosecutors they direct can pursue
charges under 18 U.S.C. § 2250 against sex offenders who fail to register.
They can also prosecute sex offenders for other crimes, such as child
pornography or child exploitation, as part of the Department’s Project Safe
Childhood initiative. The Department created Project Safe Childhood in
February 2006 as a nationwide initiative to protect children from online
sexual exploitation and abuse. Project Safe Childhood attorneys coordinate
with federal, state, and local law enforcement to locate, arrest, and
prosecute individuals who exploit children through the Internet. The fiscal
year (FY) 2008 Department budget request included $9.5 million and 93
positions (73 attorneys) to support Project Safe Childhood. On May 7, 2008,
the Department announced it had received $5 million in new funds, which it
would use to create 43 Assistant U.S. Attorney positions to support Project
Safe Childhood, which prosecutes federal fugitive sex offenders.

Criminal Division

       The Child Exploitation and Obscenity Section of the Department’s
Criminal Division is responsible for enforcing federal criminal statutes
relating to the exploitation of children and obscenity. The section, which
helped draft the SORNA legislation, assists federal attorneys with
prosecutions of fugitive sex offenders for 18 U.S.C. § 2250 violations. The
FY 2008 budget requested $685,000 for the Criminal Division to prosecute
sex offenders.

National Center for Missing and Exploited Children

      The National Center for Missing and Exploited Children’s (NCMEC)
mission is to work with federal, state, and local law enforcement agencies to

U.S. Department of Justice                                                 6
Office of the Inspector General
Evaluation and Inspections Division
help prevent child abduction and sexual exploitation; find missing children;
and assist victims, their families, and social service agencies. Pursuant to
42 U.S.C. § 5771 et seq.; 42 U.S.C. § 11606; and 22 C.F.R. § 94.6, OJP
established NCMEC in 1984 as a private, nonprofit 501(c)(3) organization
with a mandate to perform certain functions to assist law enforcement, such
as serving as a clearinghouse for information on missing or exploited
children. While NCMEC is a private organization, it receives 71 percent
(about $40 million) of its funding from the federal government. 10

       Although not required as a part of SORNA, NCMEC has established a
Sex Offender Tracking Team. The Sex Offender Tracking Team’s main
objective is to respond to law enforcement requests for assistance in locating
fugitive sex offenders and to conduct searches for possible connections
between fugitive sex offenders and NCMEC cases on child abduction,
attempted abduction, and online exploitation. The Sex Offender Tracking
Team provides law enforcement agencies with publicly available information
and analysis about the possible whereabouts of fugitive sex offenders. The
team also acts as a liaison between the USMS and state and local agencies
regarding the arrest of fugitive sex offenders. NCMEC has not received any
federal funding specifically for the Sex Offender Tracking Team or for its
assistance to local, state, and federal law enforcement in identifying and
locating fugitive sex offenders.

       NCMEC shares the information it generates on the identification and
location of fugitive sex offenders with state and local law enforcement, as
well as with the USMS. In addition, NCMEC provides training to federal,
state, and local law enforcement officers on investigative techniques for
locating fugitive sex offenders, sex offender classification and behavior
characteristics, the legal process, and the Adam Walsh Act.

       NCMEC analysts survey 56 state and territory sex offender registry
authorities 4 times a year to estimate the total number of registered sex
offenders in the country. Using its survey results, NCMEC produces a map
of the United States showing the estimated number of registered sex
offenders in each jurisdiction. (See Appendix III.) In July 2008, NCMEC
analysts estimated that there are approximately 644,865 sex offenders in
the United States. Of these, NCMEC estimated that there are about


        10 On June 26, 2008, the President signed the Protecting Our Children Comes First

Act of 2007 (Pub. L. No. 110-240 (2008)) authorizing up to $40 million per year in federal
funding for NCMEC through 2013. The bill mandated that NCMEC support 19 specific
programs, one of which provides training and assistance to law enforcement agencies in
identifying and locating non-compliant sex offenders.


U.S. Department of Justice                                                              7
Office of the Inspector General
Evaluation and Inspections Division
100,000 fugitive sex offenders who have not registered or updated their
registrations.

Federal Sex Offender Registry System

       The national sex offender registration system is composed of two
registries: the FBI’s National Sex Offender Registry and the OJP SMART
Office’s Dru Sjodin National Sex Offender Public Registry Website. Each is
described below.

The National Sex Offender Registry

       The FBI established NSOR as a file within its National Crime
Information Center (NCIC). NCIC is a database of 18 files of criminal justice
information entered by federal, state, and local law enforcement agencies
that includes criminal record history information, records on wanted and
missing persons, and information on identifiable stolen property such as
automobiles and firearms. NCIC is available to federal, state, and local law
enforcement and other criminal justice agencies 24 hours a day, 365 days a
year.

       States can upload information on sex offenders convicted in state and
federal courts to NCIC and transfer information on sex offenders required to
register by state law to NCIC’s NSOR file. The NSOR records of convicted
sex offenders or violent sexual predators include the offenders’ current
registered addresses and their dates of conviction and registration. The
NCIC 2000 Operating Manual for the Convicted Sexual Offender Registry File
(NSOR operating manual) states that information indicating that offenders
have failed to register or are non-compliant with registration requirements
should be listed in the NSOR miscellaneous field. Those offenders who have
had active warrants issued for registration violations are listed in the NCIC
Wanted Persons File, which is a separate file within NCIC that contains
active warrants for all types of offenses.

      Under the Wetterling Act, NSOR must include records on three
categories of sex offenders:

      Individuals convicted of a criminal offense against a minor –
       “Criminal offenses against a minor” are specified by state law and vary
       from state to state. To be included in NSOR, according to the NSOR
       operating manual, the offense must be as serious or more serious
       than any of the following eight offenses: (1) kidnapping of a minor
       (except by a parent), (2) false imprisonment of a minor (except by a
       parent), (3) criminal sexual conduct toward a minor, (4) solicitation of

U.S. Department of Justice                                                 8
Office of the Inspector General
Evaluation and Inspections Division
       a minor to engage in sexual conduct, (5) use of a minor in a sexual
       performance, (6) solicitation of a minor to practice prostitution, (7) any
       conduct that by its nature is a sexual offense against a minor, or
       (8) any attempt to commit one of the offenses listed above if the state
       makes such an attempt a criminal offense.

      Individuals convicted of a sexually violent offense – A “sexually
       violent offense” is defined as any offense specified by state law that
       meets the elements of aggravated sexual abuse or sexual abuse, or an
       offense that has as part of its elements engaging in physical contact
       with another person with intent to commit aggravated sexual abuse or
       sexual abuse.

      Individuals who are sexually violent predators – A “sexually violent
       predator” is defined as a person who has been convicted of a sexually
       violent offense and who suffers from a mental abnormality or
       personality disorder that makes the person likely to engage in
       predatory sexually violent offenses. Under Megan’s Law, to designate
       a person as a sexually violent predator a board composed of experts in
       the behavior and treatment of sex offenders, victims’ rights advocates,
       and representatives of law enforcement agencies presents its
       recommendation to a court, which makes the final determination. 11

The Dru Sjodin National Sex Offender Public Registry Website

       SORNA requires the Department to maintain a national public
registry website that the public can use to access information on registered
sex offenders from all of the sex offender public registries. NSOPR, which is
an online portal to public sex offender registries, was created by OJP’s
Bureau of Justice Assistance on July 20, 2005, prior to the enactment of
SORNA, and was called the National Sex Offender Public Registry. SORNA
changed the portal’s name to the “Dru Sjodin National Sex Offender Public
Registry,” and the portal is now maintained by the SMART Office. 12 To
expand access to public registries through the NSOPR portal, SORNA made
the Department responsible for developing and supporting software to
enable jurisdictions to establish and operate sex offender public registry
websites, provide immediate information sharing among jurisdictions, and
provide the public with Internet access to all jurisdiction registries. In
response, the BJA worked with OJP’s SMART Office to establish access to


       11   42 U.S.C. § 14071 (a)(2)(A).

       12   The website is at www.nsopr.gov.


U.S. Department of Justice                                                   9
Office of the Inspector General
Evaluation and Inspections Division
the public registries of all 50 states, as well as Guam, Puerto Rico, and the
District of Columbia, through the NSOPR portal. On July 1, 2006, the
Attorney General announced that all 50 states were participating in the
NSOPR portal.

      Using the NSOPR portal, members of the public can access and
search public registries to identify the location in their communities of
offenders who, in most cases, have been convicted of sexually violent
offenses against adults and children, certain types of sexual contact, and
other crimes against victims who are minors. 13

Sex Offender Registration and Notification Process, Requirements, and
Enforcement Measures

       SORNA requires convicted sex offenders to register in the jurisdictions
in which they will live, work, and attend school, and to periodically verify
their information with jurisdiction registration authorities. Jurisdiction
registration authorities are required to alert the FBI when they receive new
or updated registration information. Sex offender registration requirements
vary by jurisdiction, and the duration for maintaining the registration is
based on the nature of the offender’s crime and on jurisdiction law. Both
federal and state law enforcement agencies have jurisdiction in enforcing
sex offender requirements.

Registration and Notification Process

       Under SORNA, all sex offenders convicted of crimes that require
registration must register with the jurisdictions in which they live, work,
and attend school within 3 business days after being released from
incarceration or within 3 business days of being sentenced in cases in
which there is no term of incarceration. Offenders convicted of an offense
that requires registration are notified by court officials of their registration
obligations. There is no separate federal registry for sex offenders released
from federal or military custody. Rather, such offenders are required to
register in the appropriate state, territorial, or tribal registries.

      Once sex offenders are entered in a jurisdiction registry, SORNA
requires them to report changes in address and to report periodically in
person to jurisdiction registration authorities to verify their information.
The interval between in-person appearances depends on the severity of the

      13 The NSOPR portal states that the Department does not guarantee the accuracy,

completeness, or timeliness of the information in the states’ public registries.


U.S. Department of Justice                                                        10
Office of the Inspector General
Evaluation and Inspections Division
offenses for which they were convicted. Most jurisdictions also require that
law enforcement agencies periodically verify registrants’ information.

      When a sex offender registers or updates a registration in a
jurisdiction registry, SORNA requires the jurisdiction to provide the new
information to the FBI’s NSOR.

Registration Requirements

       Sex offender registration requirements vary by jurisdiction. However,
SORNA requires all jurisdictions to adopt registration requirements that are
at least as strict as those established by SORNA.

       Section 115 of SORNA defines three tiers of sex offenders based on
the seriousness of the crimes for which they were convicted. The tiers
determine how long an offender must maintain registration after release or
after conviction if no prison sentence was imposed. The three tiers, in order
of most serious to least serious, are as follows: 14

      Tier III – Sex offenders whose offenses are punishable by
       imprisonment for more than 1 year and are comparable to or more
       severe than aggravated sexual abuse, sexual abuse, abusive sexual
       contact against a minor who has not attained the age of 13 years, or
       kidnapping a minor (unless committed by a parent or guardian).
       Tier III sex offenders must maintain their registrations for their
       lifetime.

      Tier II – Sex offenders other than Tier III sex offenders whose offenses
       are punishable by imprisonment for more than 1 year and are
       comparable to or more severe than the following offenses when
       committed against a minor: sex trafficking, coercion and enticement,
       transportation with intent to engage in criminal sexual activity,
       abusive sexual contact, use of a minor in a sexual performance,
       solicitation of a minor to practice prostitution, or production or
       distribution of child pornography. Tier II sex offenders must maintain
       their registrations for 25 years.

      Tier I – Sex offenders other than Tier II or Tier III sex offenders. Tier I
       sex offenders must maintain their registrations for 15 years.



       14   Tier definitions are codified at 42 U.S.C. § 16911.


U.S. Department of Justice                                                    11
Office of the Inspector General
Evaluation and Inspections Division
        SORNA provides specific sanctions for sex offenders who knowingly
fail to register or update a registration. Failure to register or update a
registration by itself is a federal felony punishable by up to 10 years in
prison. Sex offenders who commit federal crimes of violence while non-
compliant with registration requirements are subject to a mandatory 5-year
enhancement to any prison sentence imposed for the violent crime. 15

Enforcement Measures

       The enforcement of SORNA’s sex offender registration requirements
involves both federal and state law enforcement agencies. The primary
responsibility for identifying and arresting fugitive sex offenders rests with
state and local law enforcement. However, Section 142 of SORNA
authorized the Attorney General to use federal law enforcement resources,
specifically the USMS, to assist state and local law enforcement in locating
and arresting sex offenders who fail to maintain their registrations. 16

       Federal involvement in fugitive sex offender investigations can begin
when a federal law enforcement agency identifies a sex offender who is not
in compliance with SORNA requirements or when a state law enforcement
agency requests federal assistance from the USMS. If the USMS accepts the
request, it investigates based on the information the requesting state agency
provides and may assist in the arrest of the fugitive sex offender based on
the state charges. The USMS can also “adopt” the case and seek a federal
warrant based on the federal SORNA violation. In determining whether to
adopt a case, the USMS coordinates with Assistant U.S. Attorneys and state
prosecutors to determine whether state or federal charges are appropriate
based on such considerations as other charges that may be pending against
the fugitive sex offender and whether the evidence collected in the course of
the investigation supports a federal charge. If the USMS does not adopt the
case, it can continue to assist with the investigation and arrest of the
fugitive sex offender but the state will carry out the prosecution. If the
USAO seeks a federal warrant, the USMS adopts the state investigation as a
federal case and the offender is then a federal fugitive who can be
prosecuted in federal court if arrested.

Organization of the Report

      The remainder of this report presents the findings of our review in
three sections. The first section details our findings regarding the status of

       15   18 U.S.C. § 2250.

       16   42 U.S.C. § 16941.


U.S. Department of Justice                                                  12
Office of the Inspector General
Evaluation and Inspections Division
actions taken by the Department and its components to comply with and
implement SORNA requirements and to improve the registry systems for
providing law enforcement and the public with access to information on
registered sex offenders. The second section describes our analysis of the
accuracy and completeness of data that is being provided to law
enforcement and the public through the FBI’s NSOR and OJP’s NSOPR
portal. The third section presents the data we collected on the progress of
the Department in arresting and prosecuting sex offenders who are not
compliant with SORNA registration requirements.




U.S. Department of Justice                                                13
Office of the Inspector General
Evaluation and Inspections Division
                       PURPOSE, SCOPE, AND METHODOLOGY
                            OF THE OIG REVIEW


Purpose

      We reviewed the Department’s efforts to implement SORNA
requirements and assessed whether those efforts have increased the
number of fugitive sex offenders investigated, arrested, and prosecuted by
the Department.

Scope

       We reviewed law enforcement (NSOR) and publicly available (NSOPR)
sex offender registration data from January through March 2008. Our
review also examined data on fugitive sex offender investigations, arrests,
and prosecutions from FY 2004 through FY 2007. In addition, we reviewed
the implementation of SORNA by Department components and the
Department’s efforts to assist state, territorial, and tribal jurisdictions with
SORNA implementation. However, we did not review the jurisdictions’
efforts to implement SORNA.

Methodology

      To examine the implementation of SORNA, we conducted interviews
and performed both document reviews and analyses of investigation, arrest,
and prosecution data provided by Department components and other
sources listed below.

Interviews

      Office of the Deputy Attorney General;

      Office of Legal Policy;

      SMART Office;

      Bureau of Justice Assistance;

      Executive Office for United States Attorneys;

      Criminal Division;


U.S. Department of Justice                                                   14
Office of the Inspector General
Evaluation and Inspections Division
      FBI Criminal Justice Information Services Division;

      FBI Headquarters;

      USMS Headquarters; and

      National Center for Missing and Exploited Children.

Document Reviews

      Department policies on sex offender registration and notification;

      Department policies on arrest and prosecution of fugitive sex
       offenders;

      Annual reports to Congress on the USMS’s assistance to jurisdictions
       in arresting fugitive sex offenders and the federal prosecution and
       punishment of sex offenders who fail to comply with registration
       requirements; and

      Component policies on identifying, arresting, and prosecuting fugitive
       sex offenders.

Data Analyses

      OJP Dru Sjodin National Sex Offender Public Registry Website;

      FBI National Sex Offender Registry;

      FBI Integrated Statistical Reporting and Analysis Application;

      USMS Justice Detainee Information System;

      Executive Office for United States Attorneys (EOUSA) Legal
       Information Office Network System; and

      NCMEC estimates and reports.




U.S. Department of Justice                                                  15
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


      SECTION I: DEPARTMENT EFFORTS TO IMPLEMENT SORNA

       Although the Department prepared a memorandum in 2006
       regarding implementation of SORNA, we determined that
       the memorandum reached only one of several Department
       components involved in implementing SORNA. Moreover,
       we found that the Department has no current plan to guide
       the     components’     efforts   to   implement     SORNA
       requirements. At the component level, OJP has issued
       software to all jurisdictions to connect sex offender public
       registries to the NSOPR portal, as required by SORNA, and
       OJP’s SMART Office also has continued to assist
       jurisdictions to implement enhancements to jurisdiction
       sex offender registry systems. However, the SMART Office
       took 2 years to issue implementation guidelines to the
       jurisdictions, and not all jurisdictions have used the
       software to connect their public registries to the NSOPR
       portal.

       Other components also have taken steps to implement
       SORNA requirements. The United States Attorneys’ Offices
       and Criminal Division have assigned new and existing
       resources to prosecute federal fugitive sex offenders who
       fail to register or update a registration. The USMS has
       established a new investigative branch and re-assigned
       existing resources to increase federal investigations. The
       FBI has met SORNA requirements that it notify all relevant
       jurisdictions of updates to the NSOR database used by law
       enforcement and provide wider access to national crime
       information databases.

       SORNA contains a variety of provisions for different Department
components. We found that while Department components have begun
implementing these SORNA provisions, not all SORNA provisions have been
fully implemented. In the following sections, we describe the major
requirements and the activities and progress of the Department in response
to SORNA provisions.




U.S. Department of Justice                                             16
Office of the Inspector General
Evaluation and Inspections Division
Implementation of SORNA

      We found that in August 2006 the Office of Legal Policy provided the
Attorney General and Deputy Attorney General with a summary of the
provisions of the Adam Walsh Act, including SORNA, which required
implementation. (See Appendix IV.) The four pages of the memorandum
devoted to SORNA provided a section-by-section analysis of the provisions of
the Act and included recommended actions and a proposed timeline for
implementing each action. The Department distributed the memorandum
to OJP’s SMART Office on March 9, 2007 – 7 months after it was drafted.
However, the Department did not distribute the memorandum to any other
component and did not assign tasks and deadlines to components.

       When asked why the memorandum was not distributed to other
components charged with responsibilities under SORNA, a Senior Counsel
for the Deputy Attorney General stated that the memorandum was intended
to assist in implementing SORNA by providing readers a “shorthand
understanding” of a section of a public law that in its entirety is more than
60 pages long. He said that the memorandum was not binding on the
components because the Office of the Deputy Attorney General did not view
it as a directive.

       Our review of the actions taken by the components to implement
SORNA found that in some instances the components had, independently,
carried out or had begun to carry out elements identified in the
memorandum. Yet, other actions proposed in the memorandum have not
been completed and few of the timelines have been met. For example, the
memorandum calls for a joint FBI–USMS effort to assist states in locating
and arresting sex offenders who violate registration requirements. Such a
joint effort was never developed. The memorandum also called for the
SORNA implementation guidelines for the states to be issued within
6 months of SORNA’s enactment. Yet, the guidelines were not issued until
July 1, 2008 – almost 2 years after the enactment of SORNA. The
memorandum also stated that in response to Section 120 the capability for
a NSOPR portal user to identify sex offenders located within a given distance
of a specific address (geographic radius query) be implemented within
6 months of the enactment of SORNA. However, software for that capability
was not issued until July 25, 2008.

      The Department also did not prepare a more formal memorandum for
dissemination to the other components apart from the memorandum it
provided to the SMART Office in March 2007. In fact, as of October 2008
there still was no written Department-level plan for accomplishing the
actions required to implement SORNA. Because the Department did not

U.S. Department of Justice                                                17
Office of the Inspector General
Evaluation and Inspections Division
issue any directives to the components, the components have not been
accountable for implementing the recommended tasks within the timelines
contained in the memorandum. Although SORNA includes a deadline for
jurisdiction implementation of its requirements, it only imposes reporting
deadlines for the Department. Thus, without any directives from the
Department, the Department’s components have set their own pace in
implementing SORNA.

       Despite the components not receiving any formal directive, as we
describe in the following sections, OJP, the USAOs, the Criminal Division,
the USMS, and the FBI have made significant progress with implementing
many SORNA provisions. However, the Department has not fully
implemented SORNA provisions essential to making the sex offender
registration and notification system complete and accurate.

OJP has issued software to jurisdictions to connect all public sex
offender registries to the NSOPR portal and is assisting the
jurisdictions in implementing SORNA requirements.

       As discussed below, OJP has largely addressed its requirements
under SORNA to assist jurisdictions with improvements to the NSOPR
portal and is continuing to assist jurisdictions in improving their
registration systems. The jurisdictions also have responsibilities under
SORNA, but the Department’s only mechanism for enforcing compliance is
to reduce states’ Edward Byrne Memorial Justice Assistance Grant Program
funding by 10 percent or to require Indian tribes to delegate their SORNA
responsibilities to the states in which the reservations are located. 17
However, OJP did not issue guidelines to jurisdictions on implementing
SORNA until July 1, 2008. The SMART Office continues to assist Indian
tribes to establish registration systems accessible through the NSOPR
portal. The SMART Office has also not implemented a system to ensure that
registered sex offenders leaving the United States or sex offenders with
foreign sex offense convictions entering the United States comply with
registration requirements. The SMART Office has initiated a program to
provide grants to jurisdictions to assist them with implementing SORNA
requirements.




       17 The Edward Byrne Memorial Justice Assistance Grant Program helps local

communities improve the capacity of local justice systems and provides for national
support efforts, including training and technical assistance programs, to address local
needs.


U.S. Department of Justice                                                                18
Office of the Inspector General
Evaluation and Inspections Division
The SMART Office is assisting states with implementing enhancements to
state public registry systems, some of which are required by SORNA, but
these enhancements have not yet been completed.

       In Section 120, SORNA required the Department to improve the
NSOPR portal by (1) re-designating NSOPR as the “Dru Sjodin National Sex
Offender Public Website”; (2) expanding NSOPR to include information on
sex offenders from all states, U.S. territories, and tribes; and (3) providing
the public with the capability to obtain, with a single query, information for
each sex offender in any given zip code or geographical radius within 3 miles
of an address set by the user. 18 In our review we found that OJP had
renamed the NSOPR portal and was close to completing its required
expansion. The NSOPR portal now provides access to sex offender public
records from all 50 states, the District of Columbia, Guam, and Puerto Rico.
Access to the records from American Samoa, the Northern Mariana Islands,
and the U.S. Virgin Islands was to be provided by July 2008, but as of
October 2008 was still unavailable. The SMART Office is working with a
contractor to create websites for these territories, as well as 197 Indian
tribes that are not currently included on the NSOPR portal.

       The Director of the SMART Office stated that a geographic radius
search developed for the NSOPR portal will allow users to search for all
registered sex offenders within 3 miles around a specific address. During
our analysis of data available on public registries through the NSOPR portal,
we identified 16 states in which a similar mapping feature was available.
BJA and SMART Office staff told us that because NSOPR is only a portal to
the individual jurisdiction public registries, implementation of the radius
search capability will require the jurisdictions to install new software on
each of their registries. Consequently, the SMART Office has entered into a
2-year unlimited use contract with a private mapping vendor to provide
geographic radius search software to the jurisdictions. On July 25, 2008,
the SMART Office made geographic radius search software available to all
registration jurisdictions, including states, territories and tribes. 19




       18   42 U.S.C. § 16920.

        19 We found that, as of July 31, 2008, 16 state public registries included a mapping

feature, some of which provided a geographic radius search. However, we cannot confirm
whether the software used was provided by the SMART Office or was obtained
independently by the states.


U.S. Department of Justice                                                              19
Office of the Inspector General
Evaluation and Inspections Division
OJP took 2 years to issue implementation guidelines.

       On July 1, 2008, the SMART Office issued the guidelines required by
Section 112(b) to inform the jurisdictions of the actions they must take to
comply with SORNA. 20 Prior to the creation of the SMART Office, 6 months
after the signing of the Adam Walsh Act, an attorney with the Office of Legal
Policy began drafting the guidelines required by SORNA. The attorney said
he began drafting these guidelines because he had experience with sex
offender registration issues when the Wetterling Act was enacted in 1994.
The attorney brought state registry, law enforcement, and corrections
representatives together at a symposium to explain SORNA and obtain their
comments on the guidelines. He also conducted presentations on SORNA
standards and received feedback from jurisdictions that included advice on
implementing the guidelines. The attorney continued working on the
guidelines with the SMART Office once it became operational at the end of
2006.

      The Director of the SMART Office told us that the guidelines went
through extensive review and revisions before publication. The Director
explained that the SMART Office received over 275 comments
(approximately 600 pages) during the public comment period and that there
was considerable discussion with the components regarding revision and
editing of the final guidelines. Table 2 provides a timeline of the
development of the guidelines.




      20 42 U.S.C. § 16912(b). The final guidelines can be found at

www.ojp.usdoj.gov/smart/guidelines_final.htm.


U.S. Department of Justice                                                20
Office of the Inspector General
Evaluation and Inspections Division
         Table 2: Development of the Implementation Guidelines

                            Actions Taken                                  Dates
 The Smart Office opened.                                          December 18, 2006
 Draft of proposed guidelines underwent component review.         April 30 – May 2, 2007
 Final draft of the proposed guidelines signed by the                     May 14
 Associate Attorney General and forwarded for the Attorney
 General’s signature.
 Final proposed guidelines signed by the Attorney General.               May 17
 Proposed guidelines published in the Federal Register.                  May 30
 Public comment period held.                                        May 30 – August 1
 Comments reviewed and final guidelines edited.                      August 2, 2007 –
                                                                    January 31, 2008
 Final guidelines sent for component review.                     February 1 – February 15
 Component comments incorporated. Revisions made and              February 16 – April 29
 final guidelines edited.
 Action memo with final guidelines attached signed by the                 April 30
 Associate Attorney General. The Attorney General’s
 approval and signature requested.
 Final guidelines signed by the Attorney General.                         June 23
 Final guidelines announced by the Attorney General.                       July 1
 Source: The SMART Office.

       In SORNA, Congress established a deadline of July 27, 2009, for
state, territorial, and tribal jurisdictions to meet or exceed the requirements
of the Act. 21 The guidelines define jurisdiction compliance as follows:

       SORNA § 125 refers to “substantial” implementation of SORNA.
       The standard of “substantial implementation” is satisfied with
       respect to an element of the SORNA requirements if a
       jurisdiction carries out the requirements of SORNA as
       interpreted and explained in these Guidelines. Hence, the
       standard is satisfied if a jurisdiction implements measures that
       these Guidelines identify as sufficient to implement (or
       “substantially” implement) the SORNA requirements.

The guidelines state that the SMART Office is responsible for determining
whether individual states, Indian tribes, and territories are substantially
compliant and for providing technical support to these jurisdictions to help
them become substantially compliant with SORNA.



        21 The guidelines also state that “at the latest, submissions establishing compliance

with the SORNA requirements should be made to the SMART Office at least three months
before the deadline date of July 27, 2009.”


U.S. Department of Justice                                                               21
Office of the Inspector General
Evaluation and Inspections Division
      The Director of the SMART Office told us that the guidelines were
written so that jurisdictions could achieve compliance with each SORNA
provision in their own way. For example, the Director said that a
jurisdiction’s tier system of registration requirements would not have to
exactly match the registration requirements in SORNA. 22 Instead, SORNA
requirements are a minimum that jurisdictions must meet. The Director
said Florida law regarding the length of registration meets SORNA standards
by requiring lifetime registration for all sex offenders, not just Tier III sex
offenders, as stipulated in SORNA. Any jurisdiction that has registration
requirements that are not at least as long as SORNA’s for all tiers of sex
offenders based on convictions is not substantially compliant with SORNA.

       SORNA (Section 125(b)) also includes provisions for cases in which a
jurisdiction’s constitution is in conflict with SORNA requirements. 23 If a
jurisdiction believes that it faces such a situation, it is to inform the SMART
Office, which will assist the jurisdiction to attempt to overcome the problem
as the statute provides. If it is not possible to overcome the problem, the
SMART Office may approve the jurisdiction’s adoption of reasonable
alternative measures that are consistent with the purposes of SORNA. The
Director explained that substantial compliance submissions to the SMART
Office should identify elements of a jurisdiction’s registration and
notification procedures that are different from those specified in SORNA and
explain why the jurisdiction’s procedures should not be considered a failure
to substantially implement SORNA.

       Also, the guidelines explain that a jurisdiction’s “program cannot be
approved as substantially implementing the SORNA requirements if it
substitutes some fundamentally different approach to sex offender
registration and notification that does not incorporate SORNA’s baseline
requirements – e.g., a ‘risk assessment’ approach.” The Director of the
SMART Office said that a jurisdiction that bases its classification of sex
offenders on a risk assessment system rather than on the offense of
conviction would not be SORNA compliant. During our analysis of data
available on public registries through the NSOPR portal, we identified eight




       22 Section 115 of SORNA establishes three tiers of registration requirements for sex
offenders according to the severity of their offenses. Tier definitions are codified at
42 U.S.C. § 16911. See the Background section of this report for further discussion.
       23   42 U.S.C. § 16925(b).


U.S. Department of Justice                                                             22
Office of the Inspector General
Evaluation and Inspections Division
states in which the registration requirement was still based at least partially
on an assessment of the offender’s risk of re-offending. 24

      In July 2008, OJP provided a checklist that the jurisdictions can use
to prove they are in compliance with SORNA. The checklist was also
intended to assist the SMART Office in assessing the jurisdictions’
compliance submissions when considering extension requests and when
considering funding reductions for non-compliance. Section 124 of SORNA
authorizes the jurisdictions to request, and the Attorney General to grant,
up to two 1-year extensions beyond the deadline. 25 As of October 3, 2008,
26 states, territories, and Indian tribes had submitted information for
review, an extension request, or both to the SMART Office. The jurisdictions
submitted information on preliminary compliance efforts, proposed and
model legislation, changes to the tier system of registration requirements,
and evidence of substantial compliance efforts. (See Appendix II.) As of
October 3, 2008, four states had submitted requests for extensions.

       The Director of the SMART Office said that substantial compliance
will vary depending on specific issues associated with each jurisdiction’s
laws. Plans and processes for implementation will vary with each
jurisdiction. She said the SMART Office provides ongoing assistance to
jurisdictions as they are making policy decisions regarding meeting the
minimum requirements for substantial compliance. The SMART Office then
considers on a case-by-case basis whether jurisdiction sex offender
registration and notification procedures follow the provisions of SORNA by
assessing whether the departure from a specific SORNA requirement will or
will not substantially accomplish the objectives of the requirement.

      Section 125 of SORNA also directs the SMART Office to penalize states
for not complying with the provisions of SORNA. 26 Specifically, states are
subject to losing 10 percent of the funds they receive through the Edward
Byrne Memorial Justice Assistance Grant Program if the SMART Office
determines that they are not in compliance with SORNA by July 27, 2009.
Any funding reductions are not scheduled to take effect until FY 2010, at
the earliest.


       24The eights states were Arizona, Delaware, Massachusetts, Montana, Nebraska,
New York, Texas, and Washington. We note that states are not required to be in
compliance until July 27, 2009.

       25   42 U.S.C. § 16924.

       26   42 U.S.C. § 16925.


U.S. Department of Justice                                                        23
Office of the Inspector General
Evaluation and Inspections Division
      The Director of BJA said that because OJP took 2 years to issue the
guidelines, jurisdictions may not have time to comply by the July 27, 2009,
deadline for implementing SORNA. In addition, the Director stated that the
threat of losing 10 percent of Byrne grant money may not be an effective
inducement for state compliance because it may cost some states more to
comply than they might lose for not complying. 27 NCMEC officials also
noted that several states had informed NCMEC that they believed their
current programs already fulfill their SORNA requirements. The officials
said that if the states’ current programs are found not to be compliant, the
states still do not plan on implementing new procedures or upgrading their
systems because they did not receive any money at the time of SORNA’s
enactment (see the SOMA section below). NCMEC officials also said that the
states view the guidelines as optional and therefore believe it is up to them
whether they will follow the guidelines in implementing SORNA. NCMEC
added that representatives from one state law enforcement agency stated
they have questions regarding the definition of “substantially compliant”
because there are provisions of SORNA that they will not implement. The
former USMS Sex Offender Investigations Branch Chief Inspector also raised
the possibility that states could choose not to comply. However, as of
October 28, 2008, the SMART Office had not received an official declaration
from any jurisdiction indicating that it will not substantially comply with
SORNA.

The SMART Office has not implemented a system to track sex offenders
entering or leaving the United States.

       Section 128 of SORNA directs the Attorney General to create a system
for informing the states about individuals entering the United States who
have been convicted of sex offenses in foreign countries and who are
required to register in the United States. 28 The SMART Office guidelines
state that those individuals must register within 3 days of their arrival in
the jurisdictions where they will live, work, or go to school. The
jurisdictions then follow the same procedure they use for initial registration
of domestic sex offenders. After initial registration, the jurisdiction must
immediately forward the registration information to any other jurisdiction in
which the sex offender is required to register.

       27  In 2008 the Department awarded roughly $107.7 million to states and territories
through the Byrne Memorial Justice Assistance Grant Program. This is an average of about
$1.9 million per state, which means that on average states could lose about $192,000 for
not complying with SORNA for any fiscal year after July 27, 2009. Awards to the states
ranged from $11.5 million to $281,000.

       28   42 U.S.C. § 16928.


U.S. Department of Justice                                                            24
Office of the Inspector General
Evaluation and Inspections Division
      In addition, the guidelines require that jurisdictions’ registries include
passport information on sex offenders. The guidelines state that having this
information in the registries helps to:

           Locate and arrest registrants who may attempt to leave the United
            States after committing new sex offenses or registration violations,

           Facilitate the tracking and identification of registrants who leave
            the United States but later re-enter while still required to register
            (which specifically addresses Section 128 requirements), and

           Cross-check the accuracy and completeness of other types of
            information that registrants are required to provide.

       Further, according to the guidelines a jurisdiction must notify the
Department when sex offenders inform the jurisdiction that they intend to
live, work, or go to school in a foreign country. The jurisdiction in which an
offender originally registers must also inform other jurisdictions in which
the offender is registered, as well as the USMS, and update the sex
offender’s information in national databases pursuant to Section 121(b)(1) of
SORNA. 29

       The Director of the SMART Office stated that she has discussed
several issues involving individuals with convictions for foreign sex offenses
with INTERPOL and the USMS, including (1) maintaining accurate
information about registered sex offenders who travel outside of the United
States, (2) the need for a federal law enforcement collaboration to track sex
offenders, and (3) notifying foreign jurisdictions of sex offenders entering
their countries. 30 The Director also stated that the SMART Office is
reviewing the current processes, policies, and resources that could be
employed to assist in the international notification process, including
determining how the NSOPR portal can be used to track sex offenders that
travel internationally. 31



       29   42 U.S.C. § 16921(b)(1).

       30 Created in 1923, INTERPOL is the world’s largest international police
organization, with 186 member countries. According to INTERPOL, it facilitates cross-
border police cooperation and supports efforts to prevent or combat international crime.

       31 On September 12, 2008, the SMART Office began sponsoring an International

Working Group to track sex offenders leaving and entering the United States or traveling
internationally.


U.S. Department of Justice                                                             25
Office of the Inspector General
Evaluation and Inspections Division
The SMART Office has begun to implement the Sex Offender Management
Assistance Program.

       Section 126 of SORNA requires the Attorney General to establish a
Sex Offender Management Assistance (SOMA) program to help jurisdictions
offset the costs of implementing SORNA. 32 The Director of the SMART Office
said that SOMA was intended to provide grants to jurisdictions to assist
them with implementing SORNA requirements and that the SMART Office
received $25 million for this purpose for FY 2007. In addition, in FY 2008,
the SMART Office received $4.16 million for SOMA through the
Department’s Office of Community Oriented Policing Services (COPS). 33 In
April 2008, the SMART Office issued a solicitation for grant requests from
state and local jurisdictions and federally recognized Indian tribes for
funding to implement SORNA. 34 Eligible applicants were required to submit
application packages by early May. As of June 12, 2008, the SMART Office
had received 96 applications for funding. The Director said the SMART
Office used an outside independent peer review panel to review the
proposals and rate each based on its content and viability. Based on the
panel’s reviews, the SMART Office awarded 26 state, local, and tribal
entities funding to implement Adam Walsh Act provisions, including SORNA
(Table 3).




       32   42 U.S.C. § 16926.

       33   The Office of Community Oriented Policing Services (COPS) awards grants to
tribal, state, and local law enforcement agencies to hire and train community policing
professionals, acquire and deploy crime-fighting technologies, and develop and test policing
strategies. It also provides training and technical assistance to advance community
policing.
       34 SMART Office Fiscal Year 2008 Support for Adam Walsh Act Implementation

Grant Program Competitive Grant Announcement; Grant Number: SMART-2008-1852.


U.S. Department of Justice                                                              26
Office of the Inspector General
Evaluation and Inspections Division
Table 3: Adam Walsh Act Implementation Grant Program Grantee List

      Grantee                                                     State
      Allegheny County                                   Pennsylvania
      St. Landry Parish Sheriff’s Department             Louisiana
      City of Allen Park                                 Michigan
      State of Wisconsin                                 Wisconsin
      Alabama Department of Corrections                  Alabama
      Indiana Department of Correction                   Indiana
      Tangipahoa Parish Sheriff’s Office                 Louisiana
      Fort Peck Assiniboine & Sioux Tribes               Montana
      City of Hartford                                   Connecticut
      State of New Hampshire Department of Safety        New Hampshire
      Pueblo of Acoma Police Department                  New Mexico
      Osceola County                                     Florida
      Tonkawa Tribe of Oklahoma                          Oklahoma
      South Carolina Law Enforcement Division            South Carolina
      Miami Tribe of Oklahoma                            Oklahoma
      Santee Sioux Tribe of Nebraska                     Nebraska
      Penobscot Indian Nation                            Maine
      Government of the Virgin Islands                   Virgin Islands
      St. Lucie County Sheriff’s Office                  Florida
      St. Regis Mohawk Tribe                             New York
      Northern Cheyenne Tribe                            Montana
      Turtle Mountain Band of Chippewa Indians           North Dakota
      Miami-Dade County                                  Florida
      Chicago Police Department                          Illinois
      White Mountain Apache Tribe                        Arizona
      West Valley City                                   Utah
      Mississippi Band of Choctaw Indians                Mississippi
     Source: SMART Office.

The SMART Office is assisting jurisdictions in implementing SORNA
requirements through technical enhancements to the NSOPR portal.

       Many of the requirements contained in SORNA are applicable to the
jurisdictions, not the Department. While the efforts of the jurisdictions to
meet their SORNA requirements are beyond the scope of this review, we
examined the efforts of the SMART Office to assist the jurisdictions in
meeting their requirements. As discussed below, these include the SMART
Office’s efforts to develop a “Common Space” in the NSOPR portal to enable
the jurisdictions to better share information, develop software that the
jurisdictions can use to provide the public with automatic notifications of
U.S. Department of Justice                                                27
Office of the Inspector General
Evaluation and Inspections Division
updated sex offender information, and provide public users the capability to
search sex offender e-mail addresses.

       Establishing a “Common Space” Online. Section 121 of SORNA
requires that, after a sex offender registers or updates a registration, an
appropriate official in the jurisdiction shall immediately provide the
information to other jurisdiction registries. 35 The Director of the SMART
Office stated that Section 121 is one of the most difficult legislative
requirements of SORNA for the jurisdictions to implement because state
systems are not compatible with each other. To assist the jurisdictions with
making the required notifications, the SMART Office developed a “Common
Space” in the NSOPR portal that is available to only authorized law
enforcement and other personnel.

       The Director of the SMART Office and a Senior BJA Program Analyst
described the “Common Space” as a means for law enforcement to exchange
information on registered sex offenders over a secure, password-protected
network. For example, if a registered sex offender moves from jurisdiction A
to jurisdiction B, jurisdiction A would notify jurisdiction B of the transfer
and provide the date that the
sex offender should report. If                       Common Space Tools
the registered sex offender
                                    Tools that the SMART Office planned to provide
failed to report within 72
                                    through the Common Space included:
hours of moving to jurisdiction
B, the NSOPR portal would              State Sex Offender Law Database: State sex
automatically notify both               offender laws will be compiled and accessible to
jurisdictions that the sex              law enforcement. The SMART Office has not yet
offender had not complied with          determined who will be responsible for
                                        gathering state sex offender laws.
registration obligations and, if
probable cause existed, a              State Sex Offender Registry Contact Information:
warrant could be issued and             Users of the Common Space who provide their
the sex offender could be               e-mail addresses will be provided mailboxes on
registered as a fugitive. The           the system. Users can then search for other
                                        users by name, state, and other criteria. E-mail
Common Space will also                  within the Common Space is restricted to
provide users with                      members of the Common Space community, so
administrative tools such as            all e-mail will be from known and authenticated
shared document libraries and           state sex offender registry contacts, which
blogs to exchange information           facilitates communication among the states.
(see text box). The Common
Space became operational on
July 25, 2008.

       35   42 U.S.C. § 16921.


U.S. Department of Justice                                                         28
Office of the Inspector General
Evaluation and Inspections Division
       Providing Automatic Notification Software. Section 121 of SORNA
requires jurisdictions to establish notification systems that automatically
notify members of the public when changes are made to the registration
records of sex offenders in their areas. 36 To meet this requirement, the
SMART Office developed software for jurisdiction registries that enables
public users to enter their e-mail and physical addresses in a jurisdiction’s
public registry. Users are automatically notified by e-mail of new or
updated sex offender registrations in their vicinity. The SMART Office made
automatic notification software available to all states, territories, and tribes
on July 25, 2008.

      Developing a Sex Offender E-Mail Address Search Capability. The
SMART Office is developing a search capability for state registries available
through the NSOPR portal that will allow users to check whether specific
e-mail addresses belong to registered sex offenders. This feature, for
example, will allow parents to determine if e-mail messages sent to their
children are from registered sex offenders. The SMART Office plans to begin
testing this search capability once the jurisdictions start collecting e-mail
addresses of registered sex offenders, as required by SORNA.

The SMART Office is helping Indian tribes meet SORNA requirements.

       Section 127 of SORNA requires federally recognized Indian tribes to
decide whether they will carry out SORNA provisions themselves or delegate
sex offender registration and notification responsibilities to the states in
which the tribes reside. 37 However, not all federally recognized tribes are
eligible to make this election. 38 The Director of the SMART Office said only
212 of the 562 (38 percent) federally recognized Indian tribes fit the criteria
specified in Section 127 of SORNA and are eligible to choose to carry out
SORNA provisions or delegate sex offender registration and notification
responsibilities to the states in which the tribes are located.

       The Director said that as of March 31, 2008, 197 of the 212 eligible
tribes had elected to implement SORNA requirements, submitted the
required tribal resolution to the SMART Office, and will have the same sex

       36   42 U.S.C. § 16921.
       37   42 U.S.C. § 16927.

        38 The jurisdiction and legal authority of 350 federally recognized Indian tribes was

transferred from the federal government to state governments in six states (California,
Minnesota, Nebraska, Oregon, Wisconsin, and Alaska (upon statehood)) in 1953 (18 U.S.C.
§§ 1162, 1360, and 1321-1326). According to the Director of the SMART Office, these
tribes’ SORNA decisions are made by the states in which tribes reside.


U.S. Department of Justice                                                               29
Office of the Inspector General
Evaluation and Inspections Division
offender registration and notification responsibilities as a state. 39 After
electing to implement SORNA, a tribe may rescind its election to function as
a registration jurisdiction, in which case the registration function is
delegated to the state.

       The SMART Office plans to make tribal sex offender registries
accessible through the NSOPR portal by July 2009. However, the Director
said that she anticipates that the tribes will need deadline extensions for
establishing sex offender registries and that she has explained to several
tribes that, to receive extensions, they may have to demonstrate progress.
Complicating SORNA implementation is the fact that some tribes do not
have automated sex offender registration records.

       According to the Director, eligible tribes have three options in
establishing registries. First, several tribes may form a consortium to
develop and share a sex offender registry, which could save development
and administrative costs. Second, a tribe may enter into a cooperative
agreement with a state for pooling or sharing responsibilities for
maintaining the registry for the tribal land (jurisdiction). Third, the SMART
Office has funded and developed a web-based registry that tribes and
remaining territories can populate with their jurisdictions’ sex offender
information so that it can be added to the NSOPR portal. The Director said
the SMART Office has been encouraging tribes to use the second option to
comply with SORNA. 40

       The Assistant U.S. Attorney (AUSA) detailed to the SMART Office said
the office is working on technical issues related to how the NSOPR portal
will be altered to provide access to the sex offender information of tribes that
have chosen to implement SORNA provisions. In addition, the AUSA said
the office is working with the FBI to facilitate tribal access to NCIC and
NSOR via state systems. Some states do not recognize tribes and therefore
will not allow them access to NCIC or NSOR.

     In testimony before the Senate Committee on Indian Affairs, the
Executive Director of the National Congress of American Indians discussed

       39   The remaining 14 eligible Indian tribes elected to not implement SORNA
requirements, and as a result the state in which each is located will have jurisdiction over
the tribe’s sex offender registration and notification system.

       40 The Executive Director for the National Congress of American Indians said the

SMART Office’s SORNA guidelines provide no indication of the process that will be used to
assess tribal compliance. The SMART Office told us, however, that it will assess tribal
compliance in the same manner as states and territories.


U.S. Department of Justice                                                               30
Office of the Inspector General
Evaluation and Inspections Division
a 2002 Bureau of Justice Statistics census of tribal justice agencies that
found only 54 tribes were entering information on tribal sex offenders into
NSOR, less than half of tribal justice agencies had access to NCIC (and
NSOR), and only 14 tribes reported that they were routinely sharing crime
statistics with state or local government or the FBI.

       During that July 2008 hearing before the Senate Committee on Indian
Affairs, the Executive Director and representatives from four confederated
tribal bands and tribal nations described the difficulties Indian tribes have
concerning how the SMART Office will evaluate the implementation of
Section 127 of SORNA. In addition, tribes testified that they believe
increased expansion of state authority will ultimately result in additional
confusion of criminal jurisdiction on tribal lands and diminish cooperation
between the states and tribes regarding law enforcement.

The SMART Office issued the annual report to Congress on the enforcement
of registration requirements.

       Section 635 of the Adam Walsh Act requires the Attorney General to
submit an annual report to Congress on the enforcement of sex offender
registration requirements. 41 The report is to include a detailed explanation
of the use of the USMS to assist states in locating and arresting fugitive sex
offenders, the use of 18 U.S.C. § 2250 to punish offenders who fail to
register, each state’s compliance with SORNA, the Department’s efforts to
ensure compliance, and the denial or grant of any extensions to comply with
SORNA. The first annual report was due July 1, 2007, but it was not
submitted. We found that the SMART Office was assigned responsibility for
developing the report on April 23, 2008, and issued it to Congress in
October 2008.

The United States Attorneys’ Offices and Criminal Division have
assigned new and existing resources to prosecute federal fugitive sex
offenders who fail to maintain current registrations.

       We found that in response to SORNA requirements, AUSAs in USAOs
and Trial Attorneys within the Criminal Division have been coordinating
efforts. Also, the Department provided additional resources, including 43
new AUSAs, to prosecute SORNA registration violations, along with child
pornography and exploitation crimes. Among these efforts, federal
attorneys, through the Department’s Project Safe Childhood initiative and
the Criminal Division’s Child Exploitation and Obscenity Section (CEOS) are

       41   42 U.S.C. § 16991.


U.S. Department of Justice                                                31
Office of the Inspector General
Evaluation and Inspections Division
developing policy and assisting with litigation. 42 CEOS consults with and
provides advice to AUSAs regarding the legal issues, notification
requirements, and increased penalties associated with SORNA. AUSAs may
request assistance with a specific prosecution if their offices lack the
resources or the expertise. CEOS can help AUSAs examine the
circumstances surrounding a case and the options available to them to
determine an effective prosecution strategy.

CEOS has provided policy assistance to federal attorneys for interpreting
SORNA provisions, including notification requirements and enhanced
sentencing penalties.

       Section 117 of SORNA requires that an appropriate official notify sex
offenders of their registration duties under SORNA and obtain signed
acknowledgements that the offenders are aware of their registration
obligations. 43 In addition, Section 141 of SORNA amended the federal
criminal code to impose a fine or a prison term of up to 10 years or both
upon convicted sex offenders for failure to register or update a registration.
It also increased criminal penalties for sex offenders who do not register and
commit a crime of violence, imposes increased criminal penalties for making
false statements in a sex offense registration or in connection with certain
sex crimes against children, modifies probation and supervised release
provisions for sex offenders required to register, and requires the Federal
Bureau of Prisons to inform sex offenders released from prison of their
requirements to register. 44

       In response to these requirements, CEOS assisted with the
development of guidance for federal prosecutors regarding these and other
provisions of the Adam Walsh Act. The Deputy Attorney General issued the
guidance to AUSAs in February 2007. A CEOS Trial Attorney said that
based on the guidance, CEOS created and distributed forms for AUSAs to
use in indictments and plea agreements with sample language for notifying
offenders of their responsibilities to register. He added that the suggested
language within plea agreements or probation agreements suffices as
notification of obligations. In addition, the guidance also included an


       42  Project Safe Childhood was established in February 2006 to combat the
proliferation of technology-facilitated sexual exploitation crimes against children, such as
Internet-based crimes.

       43   42 U.S.C. § 16917.

       44   18 U.S.C. § 2250.


U.S. Department of Justice                                                                32
Office of the Inspector General
Evaluation and Inspections Division
explanation of the enhanced sentencing for failure to register or update a
registration established in Section 141 of SORNA.

       The Chief of CEOS said that at the time that SORNA was enacted,
federal attorneys were rarely involved in prosecuting sex offenders for failure
to register or update a registration and therefore were not well-versed in
those types of cases. For this reason, CEOS wanted to provide assistance to
federal attorneys quickly after SORNA was enacted. CEOS worked with the
Deputy Attorney General, Office of Legal Policy, and the Executive Office for
United States Attorneys to develop the guidance discussed above for
providing AUSAs with background on SORNA to prosecute cases. EOUSA
representatives we interviewed attributed the success of federal fugitive sex
offender prosecutions since SORNA (discussed in Section III of this report)
in part to CEOS’s expertise in prosecuting child exploitation cases.

Federal attorneys broadened the Department’s Project Safe Childhood to
prosecute fugitive sex offenders.

       Section 143 of SORNA directs the Department to make several
enhancements to the Project Safe Childhood initiative. 45 These
enhancements are: (1) coordinate, investigate, and prosecute child
exploitation cases; (2) increase federal involvement in child pornography and
enticement cases; (3) participate in community awareness and educational
programs; (4) establish new Internet Crimes Against Children task forces;
and (5) provide increased prosecutorial support to the FBI’s Innocent Images
task forces. In response, the Department announced in May 2008 that it
was distributing $5 million in new funds to Project Safe Childhood. A
Department press release stated that the “money will fund 43 new AUSA
positions across the nation to prosecute these offenses” and facilitate Project
Safe Childhood efforts. As of October 2008, EOUSA was in the process of
determining how to allocate the new AUSA positions among districts.
EOUSA planned to make its decisions about allocating the new attorneys
based on child exploitation caseload data from the Project Safe Childhood
initiative and narratives submitted by each district describing its work in
the area. The child exploitation caseloads include not only SORNA offenses
but also child pornography offenses, sexual abuse of children within federal
jurisdiction, sex trafficking of children, buying or selling children, online
coercion and sexual enticement of children, transmitting information about
a minor, and several other related offenses.




       45   42 U.S.C. § 16942.


U.S. Department of Justice                                                   33
Office of the Inspector General
Evaluation and Inspections Division
USAOs and Criminal Division are coordinating component efforts to
investigate Internet crimes against children.

       Section 145 of SORNA expands training and cooperative activities
related to Internet crimes against children and expands the deployment of
technology to track and deconflict child exploitation investigations. 46 In
response, the FBI, USMS, EOUSA, Criminal Division, and two federal
agencies outside the Department – the Department of Homeland Security’s
Immigration and Customs Enforcement (ICE) and the U.S. Postal Inspection
Service – entered into a Memorandum of Understanding (MOU) to deploy
and implement the Cyber Safe Deconfliction system. That automated
system will allow the agencies to identify potentially overlapping
investigations, avoid duplication of effort, and coordinate investigative
efforts.

       To implement the MOU, in June 2008 the Department’s Associate
Attorney General issued a memorandum establishing procedures for
information sharing among the Department’s Internet Crimes Against
Children (ICAC) Task Forces. The memorandum directs the BJA and the
Office of Juvenile Justice and Delinquency Prevention to work together with
state and local ICAC task force partners to establish the Cyber Safe
Deconfliction system and a second system known as the ICAC Virtual
Headquarters. The ICAC Virtual Headquarters is intended to establish a
secure environment for law enforcement and provide communication tools,
as well as online training resources, for ICAC task forces.

The USMS has established a new investigative branch and reassigned
existing resources to increase federal investigations under SORNA, but
has not yet implemented a planned targeting center.

      Section 142 of SORNA requires the Attorney General to “use the
resources of Federal law enforcement, including the United States Marshals
Service, to assist jurisdictions in locating and apprehending sex offenders
who violate sex offender registration requirements.” 47 Because SORNA did
not provide the USMS with any additional resources, the USMS realigned




       46 Section 145 also requires a report on the activities carried out under this section

to Congress by July 1, 2007 (42 U.S.C. § 16944). The Department issued the report to
Congress on October 23, 2008.

       47   42 U.S.C. § 16941.


U.S. Department of Justice                                                               34
Office of the Inspector General
Evaluation and Inspections Division
existing resources to carry out its responsibilities. 48 In August 2006, the
USMS established a Sex Offender Investigations Branch at its headquarters
to manage sex offender investigations in the field and designated a sex
offender investigations coordinator in each district and Regional Fugitive
Task Force. In addition, the USMS coordinated with Criminal Division
attorneys to issue guidance for Deputy Marshals for use in criminal
investigations of fugitive sex offenders. The USMS also entered into an MOU
with the Federal Emergency Management Agency to identify, locate, and
arrest fugitive sex offenders after major disasters; increased support to
NCMEC; and plans to establish the National Sex Offender Targeting Center.

The USMS established the Sex Offender Investigations Branch at USMS
Headquarters to manage sex offender investigations.

       The USMS established the Sex Offender Investigations Branch at its
headquarters to direct and coordinate USMS efforts to implement SORNA.
The proposed staffing for the Sex Offender Investigations Branch included
500 USMS investigators and 125 administrative staff nationwide over
5 years. These positions would be placed across the United States based on
sex offender populations and crime statistics. However, the USMS currently
has only two persons assigned to the branch. A former Chief Inspector with
the Sex Offender Investigations Branch said that funding for its operations
came from other activities within the USMS Investigative Services Division.
The USMS created the positions in the new branch by transferring its one
position from INTERPOL and one of its positions on the Department’s
Organized Crime Drug Enforcement Task Force. The USMS Task Force
Operations Chief said that the USMS requested, but did not receive, more
Sex Offender Investigations Branch positions for FY 2008 to support USMS
fugitive sex offender investigations efforts.

       The Acting Assistant Director of the USMS Investigative Services
Division described two initiatives the Sex Offender Investigations Branch is
developing for identifying and arresting fugitive sex offenders. One proposal
is a national Operation FALCON targeting sex offenders. 49 The other
proposal describes a state-led operation in which the USMS will work with


       48A Senior Counsel for the Deputy Attorney General told us that the Department’s
FY 2008 budget did not allocate resources to the USMS to implement Section 142 and that
the Department was focused on addressing insufficient USMS resources.

        49 Operation FALCON is a USMS-led initiative that combines the resources of

federal, state, county, and city law enforcement agencies to locate and arrest fugitives
wanted for violent crimes.


U.S. Department of Justice                                                                 35
Office of the Inspector General
Evaluation and Inspections Division
state and local law enforcement to identify fugitive sex offenders and build
cases for possible federal charges under 18 U.S.C. § 2250.

The USMS designated sex offender investigations coordinators to assist in
state and local law enforcement investigations of fugitive sex offenders.

       The USMS designated sex offender investigations coordinators in each
of the 94 judicial districts and its 6 Regional Fugitive Task Forces to assist
in implementing SORNA and to establish and maintain contacts with state
sex offender registration authorities, corrections officials, and other
agencies, including the USAOs. Throughout 2007, the USMS provided
several versions of a week-long course with NCMEC on implementing
SORNA, which trained the approximately 200 Deputy Marshals who are
designated as sex offender investigations coordinators. The training covered
the legal requirements of SORNA, investigative techniques, resources, and
background information relevant to sex offender investigations to help local
law enforcement carry out their responsibilities under SORNA. The Sex
Offender Investigations Branch Chief said at least 30 coordinators have
provided this training to their state and local law enforcement partners.

       Because the USMS did not receive any new positions to carry out the
agency’s responsibilities under SORNA, the Sex Offender Investigations
Branch depends on district Deputy Marshals who serve as coordinators as a
collateral responsibility. According to the Sex Offender Investigations
Branch Chief, because the coordinators are district employees under the
control of the U.S. Marshal in charge of each district, headquarters officials
cannot directly assign them to work fugitive sex offender investigations
exclusively.

The USMS worked with Department attorneys to develop guidance to assist
Deputy Marshals in their investigation and arrest of fugitive sex offenders.

      The USMS’s General Counsel worked with attorneys of the Criminal
Division and the Office of Legal Policy to develop guidance to assist Deputy
Marshals in investigating and arresting fugitive sex offenders. The guidance
describes the new federal registration violations under 18 U.S.C. § 2250 and
the evidence necessary to prove that an individual violated the law. The
guidance also includes an overview of the decision process by which
offenders will be federally charged and prosecuted.




U.S. Department of Justice                                                36
Office of the Inspector General
Evaluation and Inspections Division
The USMS entered into an MOU with the Federal Emergency Management
Agency to investigate displaced sex offenders.

       Section 144 of SORNA directs the Attorney General to provide
assistance to states in identifying and locating sex offenders displaced as a
result of major disasters. 50 To implement this provision, the USMS and the
Federal Emergency Management Agency (FEMA), a component of the
Department of Homeland Security, entered into an MOU that became
effective July 30, 2007.

       The MOU provides the USMS with access to FEMA’s relocation
database to enable the USMS to more quickly locate displaced sex offenders.
The MOU requires that when possible the USMS contact the state registry
authorities prior to major disasters to ensure that a current and a back-up
database of registered sex offenders are available so that the USMS can
readily obtain the information needed to identify and track displaced sex
offenders immediately after a disaster occurs. The Director of the SMART
Office cited the success of the USMS in locating missing sex offenders after
Hurricane Katrina as evidence of the value of having information on
registered sex offenders readily available. The Director stated that after
Hurricane Katrina the USMS used FEMA data to locate 202 of 206 missing
sex offenders.

The USMS increased support to the National Center for Missing and
Exploited Children for fugitive sex offender investigations.

       A Senior Inspector with the USMS Sex Offender Investigations Branch
said that the USMS’s working relationship with NCMEC is stronger and the
cooperation between the two agencies has increased because of SORNA.
The Director of the NCMEC Case Analysis Division confirmed that the
support provided by the Deputy Marshal assigned to NCMEC has increased
since the enactment of SORNA. Prior to the enactment of SORNA, one full-
time Deputy Marshal was detailed to and located at NCMEC, and the
Deputy Marshal primarily assisted with missing children cases. Since the
enactment of SORNA, the Deputy Marshal has increased his efforts to
identify and locate fugitive sex offenders by assisting NCMEC’s Sex Offender
Tracking Team. The Director of the NCMEC Case Analysis Division said the
Sex Offender Tracking Team receives requests directly from law enforcement
to assist in locating fugitive sex offenders. The Sex Offender Tracking Team
conducts public records searches using search tools available through the
Internet. She said that about 50 percent of the team’s information requests

       50   42 U.S.C. § 16943.


U.S. Department of Justice                                                37
Office of the Inspector General
Evaluation and Inspections Division
are from the USMS and about 50 percent are from state and local law
enforcement agencies. The Deputy Marshal told us that he reviews and
evaluates leads that come into the NCMEC tip line and sends those
warranting further investigation to the appropriate law enforcement
agencies for investigation.

The USMS plans to establish a National Sex Offender Targeting Center.

       The USMS, with support from NCMEC, is planning to establish an
inter-agency intelligence and operations center to support the identification,
investigation, location, arrest, and prosecution of fugitive sex offenders,
which will be known as the National Sex Offender Targeting Center.
According to the USMS Sex Offender Investigations Branch Chief, the center
will assist federal, state, local, and foreign law enforcement agencies by
supplementing and coordinating state and local efforts to identify and arrest
fugitive sex offenders. The center’s objectives include working with ICE’s
Operation Predator to refer sex offenders who are citizens of other countries
for removal proceedings and coordinating the exchange of information
between state sex offender registries and other federal agencies. 51

      A USMS Assistant Director described the center as a “one-stop-shop
fusion center” for locating and arresting fugitive sex offenders. According to
USMS operational plans for the center, it would accomplish its objectives
by:

      Using government, non-governmental, and commercially available
       databases and software to identify non-compliant sex offenders;

      Analyzing leads concerning non-compliant sex offenders, particularly
       those with an interstate or foreign nexus, and referring them to the
       appropriate federal, state, local, or foreign law enforcement authorities
       for appropriate action;

      Providing analytical and case support for sex offender non-compliance
       and fugitive investigations;




       51 Operation Predator is a national initiative operated by the Department of

Homeland Security’s ICE that investigates and presents for prosecution pedophiles,
Internet predators, human traffickers, international sex tourists, and other predatory
criminals.


U.S. Department of Justice                                                               38
Office of the Inspector General
Evaluation and Inspections Division
      Facilitating information sharing among federal, state, local, and
       foreign law enforcement agencies engaged in sex offender
       investigations, as well other organizations;

      Serving as a national point of contact for state and local sex offender
       registration authorities for law enforcement matters associated with
       the implementation of the Adam Walsh Child Protection And Safety Act
       of 2006;

      Supporting and coordinating national and regional sex offender arrest
       initiatives; and

      Coordinating with Crime Stoppers USA to create a national tip line for
       information on sex offenders. 52

       The USMS also plans to establish a Behavioral Analysis Unit as part
of the center that would focus on:

      Targeting and interviewing strategies;

      Helping investigators present cases to prosecutors;

      Promoting officer safety by psychologically profiling sex offenders;

      Researching medical and behavioral information about sex offenders;

      Training investigators; and

      Prioritizing cases.

The Behavioral Analysis Unit staff would include a psychologist who
specializes in profiling sex offender behavior. The psychologist also would
provide counseling services to staff involved in fugitive sex offender
investigations.

       In the USMS’s FY 2008 budget request, the USMS asked for the
equivalent of 27 full-time positions and $7.8 million to begin deploying
additional staff to areas of the country that have large numbers of fugitive
sex offenders and to staff the center in partnership with NCMEC. The
USMS did not receive the requested funding. However, in July 2008, as

      52 According to its website, Crime Stoppers USA is a nationwide network of local

programs that work together to help prevent and solve crime in communities and schools.


U.S. Department of Justice                                                           39
Office of the Inspector General
Evaluation and Inspections Division
part of the Global War on Terror supplemental appropriations bill, the
USMS received $16.9 million to implement its responsibilities within the
Adam Walsh Act, including establishing the National Sex Offender Targeting
Center.

The FBI has met SORNA requirements to provide electronic
notification updates to NSOR and provide access to national crime
information databases.

       The FBI has met the SORNA requirement that sex offender
registration information be updated and electronically transmitted to
relevant states. We also found that the FBI issued guidance that will enable
NCMEC and certain government social service agency personnel who have
met training, certification, and background screening requirements to
access FBI criminal information databases. In addition, the FBI indicated to
us that it is willing to provide the USMS with complete electronic files of
NSOR and NCIC Wanted Persons File data for use in fugitive sex offender
investigations.

The FBI has complied with SORNA provisions requiring the reporting of
changes to sex offender information in NSOR.

       Section 119(b) of SORNA requires the Attorney General to ensure
through NSOR or another mechanism that updated information about a sex
offender be immediately transmitted electronically to all relevant states. 53
We found the Department had already implemented these capabilities as
part of the Jacob Wetterling Act of 1996. An FBI NCIC Program Analyst and
the FBI’s NSOR Management Analyst told us that when an agency enters,
modifies, or deletes a record that has the same FBI number as a record
already in NSOR, the system sends an automatic message to the state that
entered the existing record alerting it to the new registration activity. If a
sex offender moves from one state to another, the state the offender is
moving to will automatically receive a message that includes the updated
registry information so that that state can update its registry. This
electronic notification system fulfills the requirement under SORNA.

The FBI has complied with SORNA provisions requiring access to national
crime information databases.

      Sections 151, 152, and 153 of SORNA require the FBI to provide
access to FBI criminal information databases for NCMEC personnel and

       53   42 U.S.C. § 16919(b).


U.S. Department of Justice                                                40
Office of the Inspector General
Evaluation and Inspections Division
certain government social service agency personnel who have met training,
certification, and background screening requirements. 54 In response, the
FBI issued guidance that provides NCMEC personnel and certain
government social service agency personnel access to its criminal
information databases. Section 151 of SORNA requires that the Department
provide NCMEC and other government social service agencies with child
protection responsibilities with access to national crime information
databases. 55 The guidance also implements Section 152, which requires
that prospective foster or adoptive parents have their fingerprints checked
against state child abuse and neglect registries in the national crime
information databases. Finally, the guidance implements Section 153 of
SORNA by directing the FBI’s Criminal Justice Information Services (CJIS)
Division to enable government social service agencies, welfare and education
agencies, and schools to conduct fingerprint-based checks on employees or
applicants who would work with or around children.

The FBI will provide the USMS with NSOR and NCIC Wanted Persons File
data, if requested.

       In addition to the increased access to criminal history information
described above, the FBI indicated to us that it is also willing to provide the
USMS with complete electronic files of NSOR and NCIC Wanted Persons File
data for use in fugitive sex offender investigations, provided the request is
within the technical parameters allowed through NCIC. NCIC is not an
analytical database; rather it is an investigative tool that is used to obtain
records on a case-by-case basis. As a result, Deputy Marshals cannot use
NCIC to analyze the information in NSOR or the NCIC Wanted Persons File
in its entirety to identify for investigation all suspected fugitive sex
offenders.

      The FBI CJIS Assistant Director said the USMS, like any other agency
with access to NCIC, receives relevant information from NSOR and the NCIC
Wanted Persons File whenever its personnel run a criminal record check.
However, even though Deputy Marshals can view discrete portions of NSOR
records associated with one person at a time through NCIC queries, they are
not able to review the sex offender registry in its entirety because they do
not have access to the complete NSOR database. When we discussed the
potential value of NSOR data with USMS personnel, they said that the

       54   42 U.S.C. §§ 16961, 671(a)(20), and 16962.

        55 Federal law defines “national crime information databases” as “the National

Crime Information Center (NCIC) and its incorporated criminal history databases, including
the Interstate Identification Index.” 28 U.S.C. § 534.


U.S. Department of Justice                                                            41
Office of the Inspector General
Evaluation and Inspections Division
USMS uses a wide variety of intelligence sources in the course of an
investigation and said access to NSOR would be “extraordinarily helpful.”

       During our interviews, FBI CJIS officials indicated that they were
willing to provide the USMS with the complete NSOR database and NCIC
Wanted Persons File data for use in fugitive sex offender investigations, but
that they were unaware of any requests from the USMS or any other
component for access to this data.




U.S. Department of Justice                                                42
Office of the Inspector General
Evaluation and Inspections Division
      SECTION II: ACCURACY, COMPLETENESS, AND RELIABILITY
           OF THE NATIONAL SEX OFFENDER REGISTRIES

       We found that the registries that make up the national sex
       offender registration system, the FBI’s National Sex
       Offender Registry (NSOR) and OJP’s National Sex Offender
       Public Registry (NSOPR) portal, are inaccurate and
       incomplete and cannot be relied upon by law enforcement
       or the public for identifying registered sex offenders. The
       states have not entered approximately 22 percent of
       records on registered sex offenders into the FBI’s NSOR and
       have not identified sex offenders who have failed to
       maintain a current registration. Similarly, the state sex
       offender records available through OJP’s NSOPR portal are
       inconsistent and incomplete, and the NSOPR portal lacks
       reliable information about non-compliant sex offenders.
       Because of these weaknesses, federal, state, and local law
       enforcement officers who query the registries during an
       investigation may not obtain accurate information on
       suspects’ registration or fugitive status. In addition, the
       public cannot rely on the NSOPR portal as a complete and
       accurate registry to identify registered and non-compliant
       sex offenders in their communities. We believe that, when
       implemented, the SORNA guidelines will improve the
       quality of data in the sex offender registries, but will not
       correct all of the problems we noted.

       To assess the accuracy and completeness of information in the FBI’s
NSOR and in the state public registries accessible through OJP’s NSOPR
portal, we compared records across both systems to determine if records
found in one registry corresponded to records in the other. The information
in the FBI’s NSOR and OJP’s NSOPR portal is provided by the states and
territories. The inclusion, accuracy, and integrity of the data depend on the
submissions from those states and territories. We also examined the
records within each registry to determine if the information was sufficient to
enable law enforcement and the public to identify registered and non-
compliant sex offenders. Finally, we reviewed the guidelines that the
Department issued in July 2008 to determine whether they contained
measures that, when implemented, would resolve the weaknesses that we
identified in NSOR and the NSOPR portal.




U.S. Department of Justice                                                 43
Office of the Inspector General
Evaluation and Inspections Division
Data entered by the states into NSOR is incomplete and inaccurate and
does not reliably identify non-compliant sex offenders.

       We found that the FBI’s NSOR, which is populated by information
from the states and territories, is missing records on roughly one of every
five registered sex offenders. Moreover, the registry does not reliably identify
sex offenders who have failed to maintain a current registration, are under
investigation, or have had warrants issued for their arrest. We found
several causes for these problems and determined that their combined effect
makes NSOR an unreliable investigative tool. We also determined that
although FBI audits found weaknesses similar to those found by our
analysis, the FBI has not implemented the corrective actions recommended
in its audits. In addition, the FBI has discontinued its audits of state
registries because delays in issuing the Department’s SORNA guidelines in
turn delayed state implementation of SORNA requirements.

NSOR is missing records and information contained in state registries.

      Although the FBI’s NSOR is required to include records on each
individual who must register as a sex offender, we estimate that the states
have not entered approximately 22 percent of records on registered sex
offenders into the FBI’s NSOR. 56 We determined this by drawing a sample
of 1,996 registered sex offenders from 52 public sex offender registries
(accessed through OJP’s NSOPR portal) to see if they were listed in NSOR.
We found that 445 (22 percent) of the 1,996 registered sex offenders in our
sample were not listed in NSOR. See Appendix V for a state-by-state
breakdown.

       The percentage of sex offenders not included in NSOR varied widely by
state. Only eight states listed 100 percent of the sex offenders from our
sample in NSOR. For 19 states, less than 75 percent of the sex offenders
listed in their public sex offender registries were also listed in NSOR. (See
Figure 1.)




       56 According to Section 119 of SORNA, “The Attorney General shall maintain a

national database at the Federal Bureau of Investigation for each sex offender and any
other person required to register in a jurisdiction’s sex offender registry.” 42 U.S.C.
§ 16919.


U.S. Department of Justice                                                                44
Office of the Inspector General
Evaluation and Inspections Division
                          Figure 1: Percentage of Sex Offenders Listed Both in
                                  State Public Registries and in NSOR

                     35
                                                                                                32
                     30

                     25
  Number of States




                     20
                                                                          13
                     15

                     10
                               5
                     5
                                                     1
                     0
                            0 to 25 %           25 to 50 %             50 to 75 %           75 to 100 %

                               Percentage of Sex Offenders listed in both State Registries and NSOR



Note: Includes 50 states, Puerto Rico, and the District of Columbia.

       In addition, information on registered sex offenders in state public sex
offender registries did not accurately reflect the information in NSOR. For
example, in one state four sex offenders were listed as non-compliant in the
public sex offender registry. We found that only two of these four were
listed in NSOR as non-compliant and none were listed in the NCIC Wanted
Persons File, a separate file in NCIC, as being fugitives with active warrants
issued by the state. For a second state, we found one offender was listed as
a “sexual violent predator” in NSOR, but there was no similar warning in the
public sex offender registry. In addition, many offenders were listed in the
state’s public sex offender registry as a “sexually violent offender,” but none
of them was so identified in NSOR. In a third state, the public sex offender
registry indicated that there were 749 registered sex offenders, but we found
that NSOR listed 1,043.

      The findings of our review, conducted in spring 2008, mirrored the
findings of audits the FBI conducted of state registries in FY 2006. In those
audits, the FBI Criminal Justice Information Services (CJIS) Division’s Audit
Unit checked to ensure the accuracy, completeness, and validity of sex
offender data the states had entered in NSOR. The Lead Auditor said the
audits found “a lot” of data in the state records that should have been
entered into NSOR but was not. The audit also found a “huge problem” with
the states accidentally deleting records of registered and non-compliant sex

U.S. Department of Justice                                                                                45
Office of the Inspector General
Evaluation and Inspections Division
offenders from NSOR. As of September 2006, the FBI’s completed audits
identified eight systemic weaknesses (see Table 4).

       However, the FBI suspended further audits until after the SMART
Office issued the guidelines to the jurisdictions on implementing SORNA
requirements (which it did on July 1, 2008) to allow the FBI to redevelop
audit criteria based on the SORNA guidelines. Consequently, efforts to
address the eight weaknesses identified by the CJIS audits of NSOR data
and data entry procedures were placed on hold until further audits can be
conducted based on the SORNA guidelines.

         Table 4: Weaknesses Identified in State Registries and
      the Number of Audits in Which Each Weakness Was Identified

                                                                          Identified by
Weakness                                                                     Audits
Incomplete data in mandatory fields (e.g., incomplete address)              27 of 27
Non-compliance with the validation policy (i.e., the agency that            26 of 27
entered the record did not ensure it was complete, accurate, and still
active)
Inaccurate record information                                               25 of 27
Failure to properly update records (e.g., accidentally deleting the         23 of 27
entire record while trying to clear a warrant)
Failure to include a notation in the miscellaneous field that the           19 of 27
offender failed to register or was non-compliant
Accuracy of data entry not verified by second party*                        18 of 27
Untimely entry of records                                                   16 of 27
Not complying with participation requirements that define offenders         13 of 27
who must be included in NSOR
* NCIC policy requires that the accuracy of entries be double-checked by a second person
(NCIC 2000 Operating Manual, Introduction, Section 3.2, 1).

Source: FBI.

       CJIS also canvasses the states semiannually to determine the number
of records of offenders in NSOR. The last CJIS canvass, conducted in April
2008, examined all states and found that 16 percent of the records in the
states’ law enforcement registries were missing from NSOR, which is similar
to our analysis’s finding that 22 percent of 1,996 sex offenders registered in
the states’ public registries were not in NSOR.

      FBI CJIS, the USMS, and the Department officials told us there were
several reasons why NSOR does not contain complete or up-to-date
information on all of a state’s registered and non-compliant sex offenders:


U.S. Department of Justice                                                             46
Office of the Inspector General
Evaluation and Inspections Division
      States do not always obtain warrants for non-compliant sex
       offenders, and when they do obtain such warrants they do not
       enter all of them into NCIC – Participation in NCIC is voluntary, and
       states are not required to enter all of their warrants in the NCIC
       Wanted Persons File. Further, FBI CJIS officials told us some states
       do not seek warrants on non-compliant sex offenders because these
       violations do not meet the states’ criteria for seeking a warrant. The
       USMS Task Force Operations Chief noted that some states do not
       enter warrants into the NCIC Wanted Persons File because they have
       decided that they will not extradite particular fugitives because of the
       expense. He also said that some communities do not want fugitive
       sex offenders returned to them, even for prosecution. The Chief
       stated that the USMS cannot force states to enter their fugitive sex
       offender warrants into the NCIC Wanted Persons File or to note in the
       NSOR miscellaneous field that the person is a fugitive. Officials we
       interviewed in EOUSA and the BJA attributed the problem to
       shortages of resources for data entry at the state level.

      Programming issues cause information to be lost when state
       systems update NSOR records – Some states have not programmed
       their systems to allow for the updating of existing NSOR records, and
       the FBI does not maintain records on each state’s capabilities. As a
       result, according to an NSOR auditor, when one of these states tries
       to update a sex offender record, the record is deleted from NSOR even
       though the record is saved in another location on the state registry.
       The NSOR auditor told us that this programming error has resulted in
       the deletion of an unknown number of sex offender records from
       NSOR. State government budget constraints have prevented states
       from re-programming their systems to correct this problem.

      Some states provide only minimum data to NSOR – Some states
       submit only the minimum mandatory data even when they have
       additional data, according to the NSOR auditor. Many state registries
       are programmed to extract and send only the data needed to populate
       NSOR’s mandatory fields, while other states provide additional
       information.

      Some states must enter all sex offender registration data
       separately into state registries and NSOR – According to the NSOR
       auditor, many states’ centralized sex offender data systems were not
       set up to provide an interface with NCIC or NSOR because it was not
       the systems’ original purpose. When a state’s registry is not
       compatible with NCIC or NSOR, the state may be required to enter
       data separately into its own system and into NCIC or NSOR, which
U.S. Department of Justice                                                 47
Office of the Inspector General
Evaluation and Inspections Division
       creates additional work for state registry authorities. A Department
       attorney said some states have up-to-date information on their
       registered sex offenders in their own registries but do not input that
       information into their public registries and NSOR in a timely manner.
       He added that although NSOR is supposed to be a complete record, in
       some cases it is less complete than state registries. Further, in some
       states central repositories gather local agency information and enter it
       into NSOR, while in other states local agencies enter data directly into
       NSOR. The attorney stated that state registry information should feed
       directly into NSOR rather than being a two-step process that could
       lead to information being lost along the way.

      For about 10 years, NSOR did not accept sex offender records
       that did not have an FBI number – From the establishment of NSOR
       in 1997 until October 2007, a technical problem caused the database
       to not accept sex offender entries that lacked an FBI number.
       Although this problem has been resolved, sex offender registration
       records without an FBI number that were submitted before October
       2007 are missing from NSOR. 57

For the reasons stated above, an FBI NSOR Management Analyst agreed
with our finding that NSOR may be missing more than 22 percent of
registered offenders who are registered in state sex offender registries.

NSOR does not contain reliable information on which sex offenders are
non-compliant, are under investigation, or have outstanding warrants.

      Beyond the discrepancies between records on sex offenders
maintained in state and FBI systems, we also found discrepancies within
the FBI systems. States are permitted to record information about non-
compliant and fugitive sex offenders in two separate locations in the FBI’s
data systems: the Wanted Persons File of NCIC and the miscellaneous field
in NSOR that can contain a variety of other types of details. The
information in the two locations does not always correspond. We examined
NCIC information on non-compliant sex offenders and found three areas of
discrepancy.

       57  NSOR was developed to fulfill the requirements of the Lychner Act (42 U.S.C.
14072). For its creation, it was necessary to link data in NSOR with an offender’s criminal
history record maintained in the Interstate Identification Index, which could only be
accomplished by requiring the FBI number. SORNA does not have these specific
requirements for NSOR. Therefore, the FBI changed the FBI number field from mandatory
to optional in October 2007, based on the recommendation of the NCIC Advisory Policy
Board.


U.S. Department of Justice                                                              48
Office of the Inspector General
Evaluation and Inspections Division
       First, sex offenders listed       States Not Entering Warrants into NCIC
as non-compliant on state
public sex offender registries              In 2005, the St. Louis Post-Dispatch
were not always identified as       published  a series of articles about fugitives who
non-compliant in NCIC. We           were  released by police officers because their
                                    warrants had not been entered into NCIC. These
found that non-compliant sex        fugitives evaded arrest, sometimes for decades,
offenders identified in state       even after being stopped by police for traffic
public sex offender registries      offenses – and many committed serious crimes
were generally not identified as    while they were fugitives. The newspaper noted
non-compliant or as fugitives in    that there is no federal or state mandate for states
                                    to enter warrants into NCIC.
the NSOR miscellaneous field
or the NCIC Wanted Persons                  Some states do not enter warrants because
File. Among the 1,996 sex           they lack the manpower to enter warrants into
offender registrants we             NCIC as well as their own state system. Some
examined, 57 registrants were       states only enter warrants into NCIC for fugitives
                                    whom they are willing to pay the costs to extradite.
identified as non-compliant in      Other states do not want to comply with FBI rules
state public sex offender           that entries be made within 3 days of a warrant’s
registries. Of the 57               issuance and be checked for accuracy at least once
non-compliant sex offenders,        a year. Although there was no overall data on how
30 (53 percent) were listed in      many warrants are missing from NCIC, the Post-
                                    Dispatch conducted a survey (to which only 13
NSOR but were not identified        states responded) that found that 34 percent of
as being out of compliance with     felony warrants were missing from the system.
their registration requirements.
Another 11 of the 57 (19 percent) were not listed in NSOR at all. Only 16 of
the 57 (28 percent) were identified as non-compliant sex offenders in NCIC.
These included 3 sex offenders identified as fugitives in the NCIC Wanted
Persons File and 13 sex offenders identified as non-compliant or as fugitives
in the NSOR miscellaneous field.

       Second, sex offenders listed as fugitives in the NSOR miscellaneous
field were not always included in the NCIC Wanted Persons File. Our
analysis found 12,548 fugitive sex offenders identified in NCIC. Of that
total, 7,389 were identified in the miscellaneous field of NSOR, 5,432 were
listed in the NCIC Wanted Persons File, and only 273 were identified in both
locations.

       Third, most fugitive sex offenders for whom the USMS had opened an
investigation were not identified in the NCIC Wanted Persons File or the
NSOR miscellaneous field. According to USMS data, in FY 2007 USMS
districts opened 2,959 investigations of fugitive sex offenders based on state
and local warrants. As of March 21, 2008, 232 of those investigations




U.S. Department of Justice                                                        49
Office of the Inspector General
Evaluation and Inspections Division
remained open. 58 We found that only 56 (24 percent) of the 232 fugitive sex
offenders for whom the USMS had open investigations were identified in the
NCIC Wanted Person File and that only 19 (8 percent) of the 232 were
identified as non-compliant in the NSOR miscellaneous field.

       In interviews with FBI, USMS, and NCMEC officials, we determined
that non-compliant or fugitive status was not always reflected in the NSOR
miscellaneous field or the NCIC Wanted Person File for four reasons. As
discussed previously, states are not required to enter all of their warrants
into NCIC’s Wanted Persons File and do not always do so because
contributions to NCIC are voluntary. We also were told states may not want
to reveal that there are a large number of fugitive sex offenders in their
jurisdictions or may lack enough personnel to make manual updates to
NSOR and NCIC. An FBI CJIS Unit Chief stated that state and local
agencies not entering felony warrants in general into NCIC’s Wanted
Persons File has been an ongoing issue. (See text box.) Further, the NSOR
and the NCIC Wanted Persons File may not reflect all fugitive sex offenders
because states sometimes do not immediately issue warrants for sex
offenders who have failed to meet registration requirements. According to a
state registry official, the delay occurs because law enforcement cannot
question an individual once a warrant is issued – it can only arrest the
individual.

       If state warrant information is not in the NCIC Wanted Persons File,
investigators must search the narrative information in the NSOR
miscellaneous field, creating a risk that a sex offender’s fugitive status will
not be discovered by law enforcement agencies when the offender is
encountered. Although an NSOR Management Analyst told us the criminal
justice community has over 40 years of experience with the NCIC system
and can expeditiously review the data in the NSOR miscellaneous field, she
also stated that our findings could be considered by the FBI NCIC Advisory
Policy Board in recommending fields be added to NSOR to systematically
capture information now only entered in the miscellaneous field. (See text
box below.)




        58 Of the 2,727 investigations that had been closed, the USMS had arrested 2,024

(68 percent) of these fugitives, and 688 (23 percent) had been cleared through other means,
including arrests by another agency, dismissed, or purged. In addition, we excluded 15
fugitives from our analysis because they had multiple warrants and we could not confirm
that they were fugitives during the time period of our analysis.


U.S. Department of Justice                                                             50
Office of the Inspector General
Evaluation and Inspections Division
                  States Use the NSOR Miscellaneous Field to Record
                   Important Information on Fugitive Sex Offenders

        The NSOR miscellaneous field is designed to capture any information that is
 valuable to law enforcement but that does not have a designated field. It also captures
 more details regarding information contained in other fields. The terminology used to
 denote fugitive status varies by state statute. As a result, at least 15 different terms or
 comments are used to identify a fugitive sex offender (or potential fugitive) in the
 miscellaneous field:

         Absconder, Failure to Register, Warrants Issued for Failure to Register,
         Violate SO Regis, Fail to Register/Change Address, Non-compliant,
         Registration Offender, Address Unknown, Failure to Verify Address,
         Whereabouts Unknown, On Abscond Status, NCIC Warrant Sex Offender
         Address Change, Location of Subject Not Known, Not Compliant with
         Registry, Active Warrant, Offender Has Failed to Comply

         The miscellaneous field may contain other data that could be valuable to an
 investigator, including warnings, aliases, victim characteristics, and physical
 descriptions of the sex offender. The following are examples of notes recorded in the
 miscellaneous field:

        “Non-compliant/caution subject hates law enforcement/becomes agitated when
         contacted by law enforcement”;
        “History of assault with a deadly weapon (not a firearm)”;
        “Ex-marine sharp shooter subject is incarcerated”;
        “Multiple 0ffense convictions NV designated as a violent predator”;
        “0ffender has failed to comply contact vcic may be in Maryland as of 2007”;
        “Victims were nine and fifteen year old females”;
        “Tattoos on left arm eyes and a cross-wizard inside of arm-eagle-zig sag
         man/tattoos on right arm vampire skull-skull dagger-skull on inside of arm-
         cougar/tattoos on right leg-skull-clown-heart/tattoos on left leg cross with heart.
        “0ffender has a twin brother named [redacted]”; and
        “Address given is sister home Offender is homeless.”




      We found that Department and FBI CJIS officials are aware of the
shortcomings of NSOR and the NCIC Wanted Persons File. The Assistant
Director for FBI CJIS said he doubts NSOR includes all sex offenders in the
United States because the states have discretion about what data within
each record and which sex offender warrants they provide. In addition, the
Acting Chief for the FBI Violent Crimes Unit told us, “All we know is what is
reported to us by the states,” and added that it would be helpful to know if
NSOR was accurate. One USMS official told us that Deputy Marshals mine
data on sex offenders from several sources, rather than rely on NSOR alone.
However, Department officials also stated that they believe that NSOR’s
weaknesses do not impede the investigations and prosecution of sex
offenders who do not comply with registration requirements. For example,

U.S. Department of Justice                                                                 51
Office of the Inspector General
Evaluation and Inspections Division
one USMS official told us that the lack of warrant information in the NCIC
Wanted Persons File did not impede their fugitive investigations because
they receive the information they need directly from the states.

State sex offender records available through OJP’s NSOPR portal are
inconsistent and incomplete, and NSOPR lacks reliable information
about non-compliant sex offenders.

       As with the FBI’s NSOR database, we found that the sex offender
records in OJP’s NSOPR portal are inconsistent and incomplete. A Senior
BJA Analyst involved in the creation and maintenance of the NSOPR portal
stated that while he wants more people to use the NSOPR portal, he does
not want people relying on it and assuming that it is a complete and
accurate list of all sex offenders. The inconsistencies in the NSOPR portal
result from the fact that the NSOPR portal is only a portal to state and
U.S. territory public sex offender registries. 59 Consequently, data accessed
through the NSOPR portal has all the data variations and flaws evident in
those systems. During our analysis of the NSOPR portal, we found the
content of states’ sex offender registries varies widely. Many of the state
registries do not yet contain fields that are required under SORNA. Table 5
identifies the percentage of registries in our review of 52 registries that did
or did not include specific information fields.




       59 In contrast, NSOR is a database in the FBI’s NCIC system that is populated with

data that is extracted from each of the states’ sex offender registries.


U.S. Department of Justice                                                            52
Office of the Inspector General
Evaluation and Inspections Division
    Table 5: Offender Information Contained in 52 Public Registries

                                                                         Percentage
                                                                       Yes         No
Electronic notification upon request of changes in
                                                                       10%         90%
offenders’ status
Address of school affiliation                                          19%         81%
Vehicle information                                                    19%         81%
Address of employment                                                  21%         79%
Threat information (offense tier or risk assessment)                   23%         77%
Victim information (age or relation to offender)                       25%         75%
Mapping of offender’s address                                          31%         69%
Address verification                                                   37%         63%
Scars/marks/tattoos                                                    44%         56%
Compliance status                                                      46%         54%
Registration date                                                      50%         50%
Aliases                                                                60%         40%
Conviction information                                                 71%         29%
Date of birth                                                          79%         21%
Home address                                                           85%         15%
Picture                                                                88%         12%
Note: Represents 49 states, the District of Columbia, Guam, and Puerto Rico. The table
does not contain Alaska because that registry was inaccessible at the time of our analysis.
The identifiers in bold indicate SORNA-required public registry elements.

Source: State registries accessed through NSOPR.

In addition, we found that:

          All but one state registry (Kansas) provided a physical description
           of the offender, such as height, weight, eye color, and hair color.
          Eleven state registries had the offender’s age only, year of birth
           only, or no age information at all.
          Eight state registries provided a home town or zip code, but no
           home address.
          Some of the records from six state registries were missing pictures
           of the sex offender or the pictures provided were of such poor
           quality that we do not believe they could be used to reliably
           identify offenders.
          One state registry (Colorado) did not have any conviction data.

U.S. Department of Justice                                                               53
Office of the Inspector General
Evaluation and Inspections Division
       As with the FBI’s NSOR database, we found that the NSOPR portal
does not contain reliable information to identify non-compliant or fugitive
sex offenders. States’ public registries often did not inform users that a sex
offender was a fugitive. According to USMS data, in FY 2007, USMS
districts entered 2,959 warrants for individual fugitive sex offenders into its
own tracking system. As of March 21, 2008, 232 (8 percent) of the warrants
for individual fugitive sex offenders remained open. 60 We could not find
NSOPR portal entries for 77 of these fugitives, and the NSOPR portal entries
for another 15 indicated the individuals were incarcerated. Of the
remaining 140 fugitives, 87 (62 percent) could be identified as such in the
NSOPR portal. The remaining 53 (38 percent) fugitive sex offenders who
were the subjects of active USMS investigations were not identified as
fugitives in the NSOPR portal.

       In response to our analysis, USMS officials provided reasons why
fugitive status information may be missing from the NSOPR portal. The
USMS Sex Offender Investigations Branch Chief said the state or local
agency that updates the state registries is often an administrative office, not
the law enforcement agency that brings cases to the USMS. Consequently,
the request to the USMS for assistance by the law enforcement agency and
the entry of fugitive status information into the state public sex offender
registry may not be coordinated. The USMS Task Force Operations Chief
stated that the state public registries’ information regarding a given
individual’s fugitive status does not concern the USMS because the USMS
relies on information provided directly from local and state investigators. He
added that he thought that including this information on the public
registries would help the public more than the USMS.

       We found that neither the BJA nor the SMART Office conducts any
analysis to identify or ensure the accuracy or consistency of data accessed
through the NSOPR portal. A Senior BJA Analyst told us that beyond the
BJA’s development of the NSOPR portal website, validation of the NSOPR
portal technology, and establishing connectivity to state registries, there has
been no Department oversight or other requirements related to the NSOPR
portal. The Analyst stated that the accuracy and completeness of the data
is the responsibility of each state and that “if the states are not updating the
data, that is on them.” Further, an AUSA detailed to the SMART Office

        60 Of the 2,727 investigations that had been closed, the USMS had arrested 2,024

(68 percent) of the fugitives and 688 (23 percent) had been cleared through other means,
including arrests by another agency, dismissed, or purged. In addition, we excluded 15
fugitives from our analysis because they had multiple warrants and we could not confirm
that they were fugitives during the time period of our analysis. Also, there were 77 that we
could not locate and 15 were listed as incarcerated.


U.S. Department of Justice                                                               54
Office of the Inspector General
Evaluation and Inspections Division
stated that the SMART Office’s role in maintaining the NSOPR portal is
managing grants, training, providing technical assistance, and overall
implementation of SORNA. The AUSA added that ensuring the accuracy
and completeness of the data in the state public registries is not a part of
the SMART Office’s role.

Implementing the SORNA guidelines should improve the quality of data
in the sex offender registries, but will not correct all problems.

      As required by SORNA, the Department issued guidelines to the
jurisdictions to strengthen the national sex offender registration system.
The guidelines were meant to interpret and clarify the SORNA requirements
that the jurisdictions are to implement. We reviewed the guidelines to
determine whether, if implemented, they would resolve the weaknesses that
we identified in NSOR and the NSOPR portal. 61 We concluded that the
guidelines would resolve some of the weaknesses we identified and would
improve the completeness and accuracy of sex offender registration data in
the registries. However, we believe the guidelines will not correct all of the
problems or ensure that members of the public have the information they
need to assess the threat posed by sex offenders in their communities.

       The guidelines list eight “core types of information whose public
disclosure through the sex offender websites has the greatest value in
promoting public safety” and that jurisdictions must provide on their public
sex offender websites in order to avoid reduction in Byrne grant funding.
The eight core types of information are:

      The name of the sex offender, including any aliases;

      The address of each residence at which the sex offender resides or will
       reside and, if the sex offender does not have any (present or expected)
       residence address, other information about where the sex offender
       has his or her home or habitually lives;

      The address of any place where the sex offender is an employee or will
       be an employee and, if the sex offender is employed but does not have
       a definite employment address, other information about where the sex
       offender works;

        61 We conducted our analysis on a draft of the guidelines because the SMART Office

did not issue the final guidelines until July 2008, after our fieldwork was completed. When
the final guidelines were issued we reviewed them, along with additional material provided
by the SMART Office, to ensure that all relevant changes to the final guidelines were
factored into our analysis.


U.S. Department of Justice                                                             55
Office of the Inspector General
Evaluation and Inspections Division
      The address of any place where the sex offender is a student or will be
       a student;

      The license plate number and a description of any vehicle owned or
       operated by the sex offender;

      A physical description of the sex offender;

      The sex offense for which the sex offender is registered and any other
       sex offense for which the sex offender has been convicted; and

      A current photograph of the sex offender.

       Several officials we interviewed, including the Director and an AUSA
with the SMART Office, a Director at NCMEC, and an EOUSA attorney,
explained that they expect the guidelines to standardize and increase the
consistency of some of the information in the jurisdiction registries, and by
extension, improve NSOR and the NSOPR portal. An FBI Intelligence
Analyst and liaison to NCMEC also told us that she believes the guidelines
will force uniformity and consistency in the data in the jurisdiction
registries. In addition, she said that the guidelines clarify who is
responsible for updating NSOR and the NSOPR portal, which will allow
better tracking of sex offenders from jurisdiction to jurisdiction. A Senior
Counsel to the Deputy Attorney General said technical assistance provided
by the SMART Office in response to the guidelines will help improve the
jurisdiction registries.

The SORNA guidelines address some of the weaknesses in the national sex
offender registries.

      The following sections provide our assessment of specific areas of the
SORNA guidelines that may help address weaknesses or otherwise improve
the national sex offender registries if they are implemented by the
jurisdictions.

      More sex offenders required to register. Some sex offenders who were
previously not required to register must do so under SORNA. The
guidelines state that “SORNA applies to all sex offenders, including those
convicted of their registration offenses . . . prior to particular jurisdictions’
incorporation of the SORNA requirements into their programs.” The
guidelines also direct jurisdictions to submit registration information before
incarcerated sex offenders are released. Although the guidelines recognize
that registering pre-SORNA sex offenders may be more difficult if those
offenders are no longer incarcerated or under supervision, the guidelines
U.S. Department of Justice                                                    56
Office of the Inspector General
Evaluation and Inspections Division
call for the jurisdictions to implement registration within 3 months for
Tier III offenders, 6 months for Tier II offenders, and 1 year for Tier I
offenders.

      Improved reporting of updated sex offender information. The
guidelines require jurisdictions to update their registries, NSOR, and the
NCIC Wanted Persons File (once a warrant has been issued), and to notify
the USMS when the jurisdictions have been informed that a sex offender
should be registering but has not appeared in person as required by
SORNA.

       More complete and up-to-date information. SORNA’s stringent
reporting requirements for sex offenders, which are described in the
guidelines, should improve the accuracy of the information in the national
registries. Specifically, the guidelines describe the in-person appearance
requirements and state that:

       In all cases in which a sex offender makes an in-person
       appearance in a jurisdiction and registers or updates a
       registration . . . the jurisdiction must immediately transmit by
       electronic forwarding the registration information for the sex
       offender (including any updated information concerning name,
       residence, employment, or school attendance provided in the
       appearance) to all other relevant jurisdictions.

In addition, the guidelines further ensure accuracy by advising jurisdictions
on how to satisfy SORNA’s requirement that public registries include
“instructions on how to seek correction of information that an individual
contends is erroneous.” The guidelines suggest that each jurisdiction
identify the jurisdiction’s representative for correcting erroneous information
on the registry website and “advis[e] persons that they can contact this
agency if they believe that information on the site is erroneous.”

       Inclusion of federally convicted offenders in the registries. There is no
separate registry for federal sex offenders. Rather, federal sex offenders are
integrated into the sex offender registration programs of the jurisdictions in
which they are required to register. However, in our analysis of the 12 sex
offenders in our sample who were convicted federally, only 7 were included
in NSOR (matched by name, state, or social security number), and 8 were
included in the NSOPR portal (matched by name and state). To ensure that
all federal offenders are included in the registries, the guidelines state that
before releasing sex offenders, the Federal Bureau of Prisons must inform
them of the SORNA registration requirements and notify law enforcement


U.S. Department of Justice                                                  57
Office of the Inspector General
Evaluation and Inspections Division
and the registration authorities in the jurisdictions into which the offenders
are being released.

       Department attorneys we interviewed said they expect there to be
more federally convicted sex offenders as a result of the increase in federal
investigations and prosecutions of SORNA violations they expect to occur
over time. Because of this expected increase, the guidelines’ emphasis on a
process for registering these offenders is particularly important. We discuss
below in Section III the trends in federal investigations and prosecutions
that have occurred since the passage of SORNA.

       Identification of fugitive status. In our analysis of fugitive sex
offenders who were the subjects of active USMS investigations, we found
that many were not listed in the NCIC Wanted Person File or were not
identified as fugitives in the NSOPR portal. The guidelines establish that
the sex offender registration record in NCIC’s Wanted Persons File will
include the information that the sex offender is a fugitive. The guidelines
state that information in the jurisdiction registry must be revised to reflect
that a sex offender is non-compliant. In addition, the guidelines specifically
state that “the jurisdiction must update the FBI’s NSOR to reflect the sex
offender’s status as an absconder or non-compliant and enter the sex
offender into the NCIC Wanted Person File (assuming issuance of a warrant
meeting the requirement for entry into that file).” The guidelines do not,
however, address fugitive status information in the NSOPR portal, and
implementation of the guidelines will not improve the public’s access to
information about non-compliant sex offenders.

       Now that the Department has issued the SORNA guidelines, the FBI’s
CJIS Division said that it plans to take actions to improve the identification
of fugitive sex offenders in NSOR. The NCIC Advisory Policy Board has
approved changes to address weaknesses in NSOR data and data entry
procedures. 62 Among the changes is adding a sex offender status field
where jurisdictions can indicate that an offender is a fugitive. The CJIS
Unit Chief told us that these changes would be implemented after the
SORNA guidelines were issued. Although the guidelines were issued in July
2008, the changes had not been implemented as of November 2008.

     Better photographs of registered sex offenders in public registries. An
important feature of the NSOPR portal is that it displays photographs of

        62 The Advisory Policy Board, composed of 33 representatives from criminal justice

and national security agencies throughout the United States, meets twice each calendar
year to discuss issues pertaining to NCIC and to make recommendations for improving
NCIC.


U.S. Department of Justice                                                             58
Office of the Inspector General
Evaluation and Inspections Division
registered sex offenders, but our review found that the photographs were
often missing, out of date, or unclear. The guidelines require jurisdictions
to provide a current photograph of the sex offender on their public sex
offender websites. The Director of the SMART Office told us that she would
like to enhance the NSOPR portal so that the search results include a
thumbnail photograph along with the name of the sex offender. However,
this change had not been implemented during our review.

The SORNA guidelines do not address some important weaknesses.

      In our review of the national registries we identified several
weaknesses that full implementation of the guidelines would not appear to
resolve.

       Information missing from the jurisdictions’ registries. During our
review of NSOR and the NSOPR portal, we found that demographic
information was not always included in the state registries. For example,
some public registry websites show either the offender’s year of birth or age,
but not the actual date of birth, which is more precise and does not have to
be updated. We also found that only 25 percent of public registry websites
provide victim characteristics, such as the age, sex, and relationship to the
sex offender. For sex offender registries to be helpful tools, it is important
that they provide the information the public needs to assess the threat
posed to them by different sex offenders. Victim information could be useful
for this purpose because sex offenders often have victim preferences.

       Identification of federal convictions. We found instances in which
NSOR and NSOPR records contained no information about registered sex
offenders’ federal convictions. Our review of the guidelines found they
require registries to include information on convictions, in general, but do
not specifically mention federal convictions. The Director of the SMART
Office noted that the guidelines require jurisdictions to list the specific
statute under which a sex offender has been convicted, which would include
any violations of federal statutes. We believe that unless the requirement is
explicit, states may continue to omit this information.

       Multiple records for the same offender. In our analysis of the national
registries, we found duplicate entries in both NSOR and the NSOPR portal.
In the FBI’s NSOR, we found 45,541 entries we considered duplicate entries,
representing 9 percent of total NSOR entries. We further sampled 186
entries from 10 states and found that 87 (47 percent) were entered in
multiple state files and confirmed to be duplicate entries. In some cases,
the multiple entries may be appropriate because they result from the
requirement that sex offenders register where they live, work, and attend

U.S. Department of Justice                                                59
Office of the Inspector General
Evaluation and Inspections Division
school or because some states require offenders to maintain registrations
regardless of where they live, work or attend school. In other cases, the
multiple entries appear to be a result of failures by states to coordinate or
from failure by a state to ensure accurate data entry. For example, we
found:

          A sex offender who was registered in Florida and listed as an
           absconder in California.

          A sex offender who was listed as an absconder in Georgia and
           listed in the Mississippi registry with a recent verification.

          A sex offender who appeared on the Florida registry three times
           with name variations. We confirmed it was the same individual by
           matching his date of birth and picture.

          A sex offender listed twice in the Colorado registry – once as
           incarcerated and once as “Failed to Register.”

      The guidelines do not address unnecessary or erroneous duplicate
records, and fully implementing the guidelines will not reduce the number
of duplicate records in the national registries. In fact, because the
guidelines call for routine and comprehensive sharing of sex offender
information between jurisdictions, it is likely that implementation of the
guidelines will result in more instances in which a sex offender is registered
in more than one jurisdiction.

       Extraneous records not purged. During our review of the NSOPR
portal, we found sex offender registration records that contained only the
name of the sex offender and indicated that the record had been removed
because the sex offender was no longer required to register. A Director at
NCMEC explained that states and territories maintain their registries in
different ways. For example, 18 states purge their registries of sex offenders
who have been deported, incarcerated, or who have moved out of state. The
remaining 38 registries do not purge records on offenders who have left the
state or are incarcerated. The guidelines do not include a protocol for
jurisdictions to ensure that the records of sex offenders who are no longer
required to register are removed from either the jurisdiction registry or the
public registry. When asked about removing records of sex offenders no
longer required to register, the Director of the SMART Office told us
jurisdictions have discretion about whether to remove or retain records of
sex offenders who are no longer required to register. An AUSA detailed to
the SMART Office noted that some state laws require information on an
offender who was required to register to remain on the state registry forever.
U.S. Department of Justice                                                  60
Office of the Inspector General
Evaluation and Inspections Division
       The inclusion of records that are not current can reduce the utility of
the registries for law enforcement. The FBI Assistant Director for the
Criminal Investigations Division provided an example of using a sex offender
public registry to develop leads in a child abduction case in Louisiana. That
state has a broad range of offenses that require registration. The list of
registered sex offenders near the site of the abduction contained 8,000
names – so many that it required a great deal of prioritization before the
information could be useful to law enforcement.




U.S. Department of Justice                                                61
Office of the Inspector General
Evaluation and Inspections Division
  SECTION III: TRENDS IN THE DEPARTMENT’S INVESTIGATION,
 ARREST, AND PROSECUTION OF NON-COMPLIANT SEX OFFENDERS

       The Department has increased federal investigations,
       arrests, and prosecutions of sex offenders for failure to
       register or update a registration, which are federal felonies
       under SORNA.        The Department has also increased
       assistance to state and local law enforcement agencies to
       arrest sex offenders for failure to register or update a
       registration.

       The Department’s involvement in the cases of non-compliant sex
offenders typically begins when a state or local agency brings one of its
fugitive warrants to a USMS task force for assistance. In most cases, the
USMS agrees to assist the state or local agency, but does not initiate a
separate federal investigation. 63 If the violation appears to meet the
standards that the USAO for that district has set for federal prosecutions,
the USMS may present the case to the USAO for consideration. The USMS
stated that only a small percentage of fugitive sex offenders qualify under
18 U.S.C. § 2250 and that most “failure to register” cases are handled by
state authorities. If the USAO accepts the case, it seeks a federal warrant
and the offender is then considered a federal fugitive.

       In the following sections, we describe trends in federal investigations,
arrests, and prosecutions of sex offenders for failure to maintain a current
registration.

The Department has increased federal investigations, arrests, and
prosecutions of sex offenders for failure to register or update a
registration.

       Over the last 4 fiscal years, the USMS has increased the number of
investigations it conducted for failure to comply with federal statutes
requiring sex offenders to register or update a registration. As shown in
Figure 2, between FY 2004 and FY 2007 the USMS increased the number of
fugitive sex offender investigations it conducted from 390 to 2,962. These
figures include both investigations of individuals for violations of federal law
and investigations of individuals wanted by state and local law enforcement
authorities for failure to maintain a current registration. Within the overall

       63 If state or local law enforcement requests USMS assistance for an investigation

based on its own warrant, the USMS “adopts” the warrant and opens an investigation
based on information contained in the state warrant.



U.S. Department of Justice                                                             62
Office of the Inspector General
Evaluation and Inspections Division
number of investigations, the proportion based on federal warrants has
increased. Specifically, between FY 2004 and FY 2007 the USMS increased
the number of federal sex offender fugitive investigations from 9 (2 percent
of the total number of investigations in that year) to 341 (12 percent of the
total).

                Figure 2: USMS Fugitive Sex Offender Investigations

                   3500




                   3000




                   2500




                   2000




                   1500




                   1000




                    500




                          0
                              FY 2004   FY 2005      FY 2006          FY 2007
   Federal Investigations       9         7            38              341
   State Investigations        381       817          1696             2621


Source: USMS.

      The total number of arrests that resulted from those investigations
increased from 149 in FY 2004 to 2,779 in FY 2007. As with investigations,
the proportion of arrests based on federal warrants increased. Figure 3
shows that all 149 arrests in FY 2004 were based on state warrants. By
FY 2007, 2,579 of the arrests were based on state warrants, and 200 arrests
(7 percent of the total) were based on federal warrants.




U.S. Department of Justice                                                      63
Office of the Inspector General
Evaluation and Inspections Division
                       Figure 3: USMS Fugitive Sex Offender Arrests

              3000




              2500




              2000




              1500




              1000




              500




                   0
                          FY 2004       FY 2005            FY 2006            FY 2007
   Federal Arrests          0             1                  7                  200
   State Arrests           149           501                1066               2579


Source: USMS.

       The number of investigations for violations of federal registration
statutes increased because SORNA made failure to register or update a
registration a federal felony and specifically identified the USMS as the
entity to pursue violators. 64 As shown in Figure 4 the USMS conducted
only 54 such investigations from FY 2004 through FY 2006. In FY 2007,
after the enactment of SORNA, the number of investigations of the failure of
sex offenders to comply with federal statutes requiring them to register or
update a registration jumped to 341. 65 Although the Wetterling Act
contained a provision that established federal jurisdiction for sex offenders
who crossed state lines and did not maintain their registration as required,
in practice, this provision was rarely used by federal investigators or

         6442 U.S.C. §16941(a) states that the “Attorney General shall use the resources of
Federal law enforcement, including the United States Marshals Service, to assist
jurisdictions in locating and apprehending sex offenders who violate sex offender
registration requirements.”

      65 In addition, since SORNA was enacted the FBI has initiated one investigation and

made one arrest for failure to register or update a registration.


U.S. Department of Justice                                                              64
Office of the Inspector General
Evaluation and Inspections Division
prosecutors. This was partly because the federal violation was a
misdemeanor and partly because the federal charge applied only if the
conviction for which the registration requirement was imposed occurred
after the Wetterling Act was enacted. With SORNA, Congress made it a
federal felony, punishable by up to 10 years’ imprisonment, for sex
offenders to cross a state line after knowingly failing either to register or to
keep their registration current.

       Figure 4: USMS Federal Investigations for Failure to Register or
                          Update Registrations

 400




 350                                                                  341




 300




 250




 200




 150




 100



                                                   38
  50


               9                      7
   0
             FY 2004             FY 2005         FY 2006            FY 2007


Source: USMS.

       Similarly, the increase in USMS arrests of fugitive sex offenders for
violations of federal statutes also occurred after the enactment of SORNA.
From FY 2004 through FY 2006, there were eight USMS arrests of fugitive
sex offenders on federal warrants. In FY 2007, after SORNA, the USMS
arrested 200 fugitive sex offenders on federal warrants (see Figure 5).




U.S. Department of Justice                                                    65
Office of the Inspector General
Evaluation and Inspections Division
         Figure 5: USMS Arrests for Federal Failure to Register or
                         Update a Registration

 250




                                                                    200
 200




 150




 100




  50




                                                  7
               0                      1
   0
            FY 2004              FY 2005        FY 2006            FY 2007


Source: USMS.

       The USMS Sex Offender Investigations Branch Chief noted that a
federal charge for failure to register or update a registration can be used
only if there is interstate travel or if the original charge was federal. If the
USMS cannot prove that the sex offender intentionally and knowingly
violated his registration requirements and crossed state lines, or if the case
fails to meet any other national or district-specific federal prosecution
standards set by the U.S. Attorney in the district, Deputy Marshals will not
present the case to the USAO. The Chief of the USMS Sex Offender
Investigations Branch also told us that not all SORNA investigations
produce a case that would be presented to the USAO. For example, the
USMS might investigate someone who is in violation of SORNA registration
requirements in one state but find he is complying in another. Therefore,
while that offender may be in violation of state law, the offender is not in
violation of SORNA and cannot be prosecuted federally. The Chief of the
USMS Sex Offender Investigations Branch also said that it is rare that cases
are referred to the USMS by entities other than a state or local agency (for


U.S. Department of Justice                                                   66
Office of the Inspector General
Evaluation and Inspections Division
example, the FBI or ICE), but that those cases almost always meet the
standards for federal prosecution.

       Department attorneys have also begun federally prosecuting sex
offenders who are in violation of SORNA registration requirements. In
response to our request for data on prosecution or declinations of alleged 18
U.S.C. § 2250 violations (failure to register or update a registration), EOUSA
reported to us that from the enactment of SORNA through March 2008, 162
such cases were accepted for prosecution and 53 cases were declined for
prosecution. 66 According to data provided by EOUSA, of the 93 USAOs, 56
(60 percent) had accepted at least one such case for prosecution through
March 2008. However, 10 of the 93 USAOs were responsible for almost half
(48 percent) of all the fugitive sex offender cases submitted through March
2008. There were no federal prosecutions for failure to register or update a
registration from FY 2004 until the enactment of SORNA in July 2006.

             Examples of Recent Legal Challenges Affecting USAO Prosecutions

         Example 1: When Ohio switched in 2006 from a longstanding state offender
 registration program to the federal Adam Walsh Child Protection and Safety Act
 registration system, more than 26,000 people, including juveniles, were reclassified as sex
 offenders and ordered to register on a public list for up to 25 years. This resulted in a
 federal class action challenge over the timing of public notification and a limited
 restraining order issued in Doe v. Dann, No. 8-cv-220PAG (N.D. Ohio). Also, thousands of
 individual state challenges to reclassifications are pending. Many of those reclassified are
 indigent or in prison. Local counties will not pay for lawyers in what is considered a civil
 dispute, said the head of the Ohio Public Defenders Office. On May 9, a Cuyahoga County
 judge found that the Adam Walsh Act’s retroactive reclassification violated both the Ohio
 Constitution’s retroactivity clause and ex post facto protections. Evans v. Ohio, No. cv-08-
 646797. Several other appeals are pending, but ultimately the issue will go to the Ohio
 Supreme Court, the judge said.

         Example 2: After a federal judge in Missoula, Montana, ruled against the national
 sex offender registration law in June 2008, Montana’s U.S. Attorney said sex offenders
 who failed to register in Montana would still be prosecuted. The U.S. Attorney said his
 office will withhold federal prosecution against offenders within the Missoula District. But
 the U.S. Attorney said his office will move forward on prosecutions within the Billings and
 Great Falls Districts. The U.S. Attorney said he expected the Justice Department to appeal
 the decision to the 9th Circuit or defend the law as constitutional in another court.



      The Chief of the Criminal Division’s Child Exploitation and Obscenity
Section stated that in almost every case, state and federal attorneys have to
decide whether the case should be prosecuted federally or by the state

       66   The reasons for the declinations are summarized in Table 6 later in this report.


U.S. Department of Justice                                                                67
Office of the Inspector General
Evaluation and Inspections Division
based on the respective penalties of the state and federal charges that can
be brought against the defendant. The USMS guidance on investigating
SORNA violations states: 67

       Typically, USAOs will consider among other things, the severity
       of the target’s offense, the target’s risk to the community, and
       the quality and quantity of the proof available. They may also
       consider the willingness and ability of a state to prosecute a
       related violation, as well as the relative severity of the available
       state penalty.

       We asked the EOUSA’s Project Safe Childhood Coordinator whether
SORNA prosecutions are likely to increase because of the Department
initiating more federal investigations of fugitive sex offenders, and he
responded, “Most definitely.”

        However, USAOs may decline to proceed with federal prosecutions of
these cases. The Project Safe Childhood Coordinator cited several reasons,
including that USAOs have flexibility in establishing guidelines for what
cases they will and will not accept. As shown in Table 6, since the
enactment of SORNA, USAOs declined to prosecute 53 of the SORNA cases
presented to them from the enactment of the law through March 2008.
U.S. Attorneys declined 15 of these cases immediately and 38 cases after
initially accepting them. 68




       67 On February 23, 2007, the USMS Office of General Counsel issued guidance to
assist Deputy Marshals in investigations of fugitive sex offenders. The guidance provided a
description of the new federal registration violation (18 U.S.C. 2250), including a
description of the elements of a violation of SORNA and of the evidence necessary to prove
that an individual violated the law. The guidance also included an overview of the decision
process by which offenders will be charged and prosecuted.

       68 The stated reasons for declination were provided by the USAOs to EOUSA. We

did not conduct an independent evaluation of the case files to verify the reasons stated for
declination.


U.S. Department of Justice                                                               68
Office of the Inspector General
Evaluation and Inspections Division
     Table 6: Declinations of Fugitive Sex Offender Cases by USAOs

    Reason EOUSA gave for declining prosecution                       Declinations
    Suspect prosecuted by other authorities                                 15
    Weak or insufficient admissible evidence                                11
    Lack of evidence or criminal intent                                      6
    No federal offense evident                                               3
    Minimal federal interest or no deterrent value                           3
    Office policy (failed to meet guidelines)                                3
    Agency request                                                           3
    Suspect prosecuted on other charges                                      2
    Suspect serving sentence on other charge                                 1
    Civil, administrative, or other discipline alternative                   1
    Department policy                                                        1
    Declined per instruction from Department                                 1
    Jurisdiction or venue problems                                           1
    Petite Policy*                                                           1
    Suspect cooperation                                                      1
    TOTAL                                                                   53
   * The Petite Policy is the Department’s policy regarding successive prosecutions when
   there has been a prior state or federal prosecution on substantially the same facts.

   Source: EOUSA.

The USMS has increased assistance to state and local law enforcement
agencies to arrest sex offenders for failure to register or update a
registration.

       The USMS was involved in assisting state and local agencies with
their fugitive sex offender investigations before the enactment of SORNA and
has continued to assist with these investigations. In FY 2004, the USMS
assisted with 381 investigations for failure to register or update a
registration based on state or local warrants, and in FY 2007, it assisted
with 2,621, as shown in Figure 6. Each year between FY 2004 and
FY 2007, the USMS increased the number of fugitive sex offender
investigations based on state and local warrants. Between FY 2004 and
FY 2005, the USMS increased the number of investigations by 436; between
FY 2005 and FY 2006, by 879; and between FY 2006 and FY 2007, by 925.




U.S. Department of Justice                                                            69
Office of the Inspector General
Evaluation and Inspections Division
  Figure 6: USMS Investigations of Individuals for Failure to Register
      or Update a Registration Based on State and Local Warrants

 3000



                                                                2621

 2500




 2000


                                               1696


 1500




 1000
                                      817




  500           381




    0
             FY 2004             FY 2005      FY 2006          FY 2007


Source: USMS.

       We found that USMS arrests of fugitive sex offenders for failure to
register or update registration on state and local warrants also increased
significantly between FY 2004 and FY 2007, from 149 arrests to 2,579 (see
Figure 7). As with investigations, the number of arrests increased each
year. Between FY 2004 and FY 2005, the USMS increased the number of
arrests by 352; between FY 2005 and FY 2006, by 565; and between
FY 2006 and FY 2007, by 1,513.




U.S. Department of Justice                                               70
Office of the Inspector General
Evaluation and Inspections Division
     Figure 7: USMS Arrests of Individuals for Failure to Register or
                Update a Registration on State Warrants

 3000



                                                                  2579

 2500




 2000




 1500



                                                1066
 1000




                                      501
  500


               149


    0
             FY 2004             FY 2005       FY 2006           FY 2007


Source: USMS.

       The USMS managers we interviewed stated that they were not
surprised by our analysis showing increased assistance to state and local
law enforcement. They stated that the numbers were consistent with the
USMS’s increased emphasis on investigating and arresting fugitive sex
offenders. The USMS Chief of Task Force Operations said that USMS
leadership, from the USMS Director down, has placed more emphasis on
investigations of fugitive sex offenders and that he would expect these
numbers to go up even more if the USMS receives positions dedicated to
fugitive sex offender investigations.

       USMS officials stated that they believe the task forces they operate
and the fugitive operations they conduct in partnership with local, state,
and other federal agencies have also contributed to the increase in fugitive
sex offender investigations and arrests. The USMS Sex Offender
Investigations Branch Chief noted that there are 94 different USMS task
forces assisting state and local agencies with investigations of fugitive sex
offenders. The USMS Chief of Task Force Operations also attributed the
increases in fugitive sex offender investigations and arrests to the maturity



U.S. Department of Justice                                                 71
Office of the Inspector General
Evaluation and Inspections Division
of the Regional Fugitive Task Forces. 69 He said that calendar year 2006 was
the first full year that the six Regional Fugitive Task Forces were in
operation and that he would expect to see increases in all types of violent
fugitive arrests in coming years, not just fugitive sex offender investigations
and arrests.

       The USMS Task Force Operations Chief noted that the USMS
currently does not have any directives specific to task forces for
investigating fugitive sex offenders. Rather, he said that the USMS views
fugitive sex offenders as a subset of violent fugitives that is included in the
USMS’s mandate for assisting the states. He stated that the USMS’s

            USMS Uses Private Data in Fugitive Sex Offender Investigations

         The USMS maintains contracts with ChoicePoint Government Services
 (ChoicePoint) and LexisNexis (which acquired ChoicePoint in February 2008) to support
 fugitive sex offender investigations. The USMS Sex Offender Investigations Branch Chief
 said the USMS uses ChoicePoint’s Registered Sex Offender Locator Tool (ReSOLT) in
 existing fugitive sex offender investigations and to identify possible new fugitive sex
 offenders. ReSOLT identifies potential fugitives based on transactions, such as
 employment and housing applications, derived from public data and then electronically
 notifies licensed users if sex offenders may be out of compliance with their registration
 requirements. For example, if a sex offender registered in one state undergoes a credit
 check to rent an apartment in a different state, ReSOLT would flag that person as a
 potential fugitive sex offender and notify registered users. As of January 2008, the USMS
 had 122 user licenses with unlimited inquiries. The FY 2008 cost for the service was
 $160, 292.

         ChoicePoint’s data repository, which is updated nightly, includes 200 million to
 225 million criminal records, and, as of January 2008, 400,000 sex offender records.
 USMS officials told us that Deputy Marshals use ReSOLT in their fugitive sex offender
 investigations. However, USMS officials noted that because leads generated by ReSOLT
 are often false, contain old information, and cannot be used as evidence in prosecutions,
 Deputy Marshals must independently verify all information generated by ReSOLT.

         Deputy Marshals also use LexisNexis’s Advanced Sex Offender Search (ASOS)
 System to research publicly available information on individual sex offenders under
 investigation. However, LexisNexis does not have additional databases that ASOS can
 search to identify other real-time information, such as credit checks or financial
 transactions, which could identify the current location of individual fugitive sex offenders
 to support investigations and assist in arrests.



       69 The Regional Fugitive Task Forces reduce the number of violent fugitives at large

by promoting cooperation among federal, state, and local law enforcement agencies. The
USMS Task Force Operations Chief said that USMS managers described the Regional
Fugitive Task Forces as “force multipliers” that are more effective than any individual
agency because they combine resources from many agencies.


U.S. Department of Justice                                                               72
Office of the Inspector General
Evaluation and Inspections Division
assistance provided under SORNA is simply a continuation of its ongoing
activities that are funded through the appropriations the USMS receives for
responding to violent crime. The USMS Sex Offender Investigations Branch
Chief stated that the USMS has arrested fugitive sex offenders brought to its
attention by the state and local agencies and that the 2006 Federal and
Local Cops Organized Nationally (FALCON) operation focused on sex
offenders. 70 However, the USMS Task Force Operations Chief said, in terms
of the size of the population of sex offenders who are out of compliance with
their registration requirements, “We’re treading water right now. The
number of sex offenders is growing all the time.”




        70 Operation FALCON III took place the week of October 22 - 28, 2006, and covered

the eastern half of the United States, focusing on some of the country’s most dangerous sex
offenders and gang members. The USMS reported 971 individuals were arrested for not
registering as sex offenders.


U.S. Department of Justice                                                             73
Office of the Inspector General
Evaluation and Inspections Division
                    CONCLUSIONS AND RECOMMENDATIONS


      In the 2 years since SORNA was enacted, the Department has made
progress in implementing the law’s requirements, but in some cases has not
completed implementation of those requirements. After SORNA was enacted,
the Department drafted a memorandum summarizing the implementation of
the Act. 71 The memorandum contained a summary of the provisions of the Act
and a proposed timeline for implementation by the Department. However, the
Department did not issue this guidance to any component other than the
SMART Office. While a Department official told us the memorandum was not
intended to be an implementation plan, the Department did not make any
other attempt to develop an implementation plan.

      At the component level, OJP issued software to all jurisdictions to
connect their public sex offender registry to the NSOPR portal, as required by
SORNA, and OJP’s SMART Office is assisting jurisdictions in implementing
enhancements to jurisdiction registry systems. In addition, in July 2008, the
SMART Office issued guidelines to assist jurisdictions in implementing SORNA
requirements. The SMART Office also created a checklist that will assist
jurisdictions in implementing SORNA provisions and that will assist the
SMART Office in determining whether jurisdictions are in compliance with
SORNA.

       We also determined that the USMS established a new investigative
program, re-assigned existing resources to increase investigations and arrests
of fugitive sex offenders, and plans to establish a National Sex Offender
Targeting Center. The USMS has also increased the number of fugitive sex
offender investigations each fiscal year, from 390 in FY 2004 to 2,962 in
FY 2007. Prosecutions of fugitive sex offenders also increased from 0 to 162
during the same period, and the USAOs and Criminal Division assigned new
and existing resources to prosecute federal fugitive sex offenders.

      The FBI has met the SORNA requirements that sex offender registration
information is electronically transmitted to relevant states when changes are
made to an offender’s information and issued guidance that will enable NCMEC
and certain government social service agency personnel to access FBI criminal
information databases. In addition, the FBI indicated that it is willing to



        71 Memorandum, “Implementation tasks and suggested timelines for implementing the

provisions of the Adam Walsh Child Protection and Safety Act of 2006,” August 3, 2006
(Appendix IV).


U.S. Department of Justice                                                        74
Office of the Inspector General
Evaluation and Inspections Division
provide the USMS with complete electronic files of NSOR and NCIC Wanted
Persons File data for use in fugitive sex offender investigations.

       Yet, neither the FBI’s NSOR nor OJP’s NSOPR portal has complete and
accurate listings of all of the sex offenders in the United States who are
required to register. Department officials told us that the completeness and
accuracy of both registries are dependant on the states and that state budget
constraints have limited states’ abilities to keep registration information up to
date. They also stated that state law enforcement may not know which sex
offenders are registered or out of compliance because the offender’s registration
status is not always identified by local agencies in jurisdiction and national
registries.

RECOMMENDATIONS

       As a result of our review, we are making the following recommendations
to the Department’s components regarding the implementation of SORNA:

   1. The FBI should ensure NSOR has more complete and accurate
      information by designing and implementing a new audit of jurisdiction
      registries’ compliance with FBI NSOR procedures and with the SORNA
      guidelines.

   2. The FBI should implement the Advisory Policy Board-approved changes
      to NSOR that specifically provide information regarding fugitive status.

   3. The USMS should obtain NSOR and the NCIC Wanted Persons File data
      downloads from the FBI and use that information to manage and
      conduct fugitive sex offender investigations.




U.S. Department of Justice                                                75
Office of the Inspector General
Evaluation and Inspections Division
                              APPENDIX I: ACRONYMS


    ASOS           Advanced Sex Offender Search
    AUSA           Assistant United States Attorneys
    BJA            Bureau of Justice Assistance
    CEOS           Child Exploitation and Obscenity Section
    CJIS           Criminal Justice Information Services
    EOUSA          Executive Office for United States Attorneys
    FALCON         Federal and Local Cops Organized Nationally
    FBI            Federal Bureau of Investigation
    FEMA           Federal Emergency Management Agency
    FY             Fiscal Year
    ICAC           Internet Crimes Against Children
    ICE            Immigration and Customs Enforcement
    MOU            Memorandum of Understanding
    NCAI           National Congress of American Indians
    NCIC           National Crime Information Center
    NCMEC          National Center for Missing and Exploited Children
    NSOR           National Sex Offender Registry
    NSOPR          National Sex Offender Public Registry
    OIG            Office of the Inspector General
    OJP            Office of Justice Programs
    ReSOLT         Registered Sex Offender Locator Tool
    SMART          Office of Sex Offender Sentencing, Monitoring,
                   Apprehending, Registering, and Tracking
    SOMA           Sex Offender Management Assistance
    SORNA          Sex Offender Registration and Notification Act
    USAO           United States Attorney’s Office
    USMS           United States Marshals Service




U.S. Department of Justice                                              76
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX II: INFORMATION SUBMITTED TO THE SMART OFFICE FOR
                           REVIEW


    State, Territory, or Tribe        Information Submitted
    Alabama                           Proposed legislation review
    American Samoa                    Proposed model legislation
    Arizona                           Substantial compliance review, extension
                                      request
    Arkansas                          Extension request, review of proposed
                                      legislation
    Cheyenne River Sioux              Preliminary review
    Coeur D’Alene                     Proposed legislation
    Colorado                          Preliminary review of Internet identifier
                                      statute
    Confederated Tribes of the        Preliminary review
    Umatilla Indian Reservation
    Guam                              Substantial compliance   review
    Idaho                             Substantial compliance   review
    Illinois                          Extension request
    Iowa                              Substantial compliance   review
    Kentucky                          Tiering review
    Louisiana                         Substantial compliance   review
    Maryland                          Preliminary review
    Mississippi                       Preliminary review
    Mississippi Band of Choctaw       Preliminary review
    Indians
    Nebraska                          Proposed legislation
    Nevada                            Tiering review
    New Hampshire                     Preliminary review
    New Jersey                        Preliminary review
    North Carolina                    Preliminary questions
    Ohio                              Substantial compliance review
    Oklahoma                          Preliminary review
    South Carolina                    Extension request
    Vermont                           Tiering review
   Source: SMART Office.




U.S. Department of Justice                                                  77
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX III: NCMEC MAP OF REGISTERED SEX OFFENDERS




U.S. Department of Justice                              78
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX IV: OFFICE OF LEGAL POLICY ADAM WALSH ACT
                   IMPLEMENTATION MEMORANDUM




U.S. Department of Justice                                   79
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            80
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            81
Office of the Inspector General
Evaluation and Inspections Division
Note: We are publishing the first three and a half pages of the
memorandum in this appendix because they deal with the SORNA
provisions of the Adam Walsh Act that we reviewed. We omitted the
remainder of the 13-page memorandum because it discussed sections of
the Adam Walsh Act not covered by our review.




U.S. Department of Justice                                      82
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX V: STATE-BY-STATE BREAKDOWN OF REGISTERED SEX
       OFFENDERS IN PUBLIC REGISTRIES AND THE FBI’S NSOR



                                                             Percentage of
                                          Number of sex     sex offenders in
                        Number of sex      offenders in        OIG sample
                         offenders in       OIG sample      listed in public
                          OIG sample       registered in      registry also
                         registered in    public registry     contained in
                        public registry    and in NSOR           NSOR
   Alabama                      33              25                75.8
   Alaska                       95              91                95.8
   Arizona                        8              8               100.0
   Arkansas                       5              4                80.0
   California                   16              14                87.5
   Colorado                    120             108                90.0
   Connecticut                  12               8                66.7
   Delaware                    100              95                95.0
   District of
                                  5              4                80.0
   Columbia
   Florida*                      —               —                  —
   Georgia                     134             134               100.0
   Hawaii                       27              24                88.9
   Idaho                        11               9                81.8
   Illinois                     29              19                65.5
   Iowa                           9              9               100.0
   Kansas                       90              63                70.0
   Kentucky                     12              11                91.7
   Louisiana                    23              21                91.3
   Maine                        77              74                96.1
   Maryland                     83              74                89.2
   Massachusetts                30              27                90.0
   Michigan                     29              28                96.6

U.S. Department of Justice                                               83
Office of the Inspector General
Evaluation and Inspections Division
                                                             Percentage of
                                          Number of sex     sex offenders in
                        Number of sex      offenders in        OIG sample
                         offenders in       OIG sample      listed in public
                          OIG sample       registered in      registry also
                         registered in    public registry     contained in
                        public registry    and in NSOR           NSOR
   Minnesota*                    —               —                  —
   Mississippi                  41              39                95.1
   Missouri                     45              41                91.1
   Montana                      42              31                73.8
   Nebraska                       7              7               100.0
   Nevada                       35              18                51.4
   New
                                  9              9               100.0
   Hampshire
   New Jersey                   25              24                96.0
   New Mexico                     8              8               100.0
   New York                     20              19                95.0
   North Carolina               32              32               100.0
   North Dakota                   5              4                80.0
   Ohio                         40              29                72.5
   Oklahoma                       1              0                 0.0
   Oregon                         8              8               100.0
   Pennsylvania                 19              13                68.4
   Puerto Rico                  31               9                29.0
   Rhode Island                   5              3                60.0
   South Carolina               22              12                54.5
   South Dakota                   3              2                66.7
   Tennessee                    59              52                88.1
   Texas                        46              28                60.9
   Utah                        131              21                16.0
   Vermont*                      —               —                  —
   Virginia                     25              23                92.0

U.S. Department of Justice                                               84
Office of the Inspector General
Evaluation and Inspections Division
                                                                     Percentage of
                                              Number of sex         sex offenders in
                        Number of sex          offenders in            OIG sample
                         offenders in           OIG sample          listed in public
                          OIG sample           registered in          registry also
                         registered in        public registry         contained in
                        public registry        and in NSOR               NSOR
   Washington                   16                   10                    62.5
   West Virginia                11                     6                   54.5
   Wisconsin                    84                     3                     3.6
   Wyoming                      65                   56                    86.2
   TOTAL                    1,996                1,551                     77.8
   *The OIG's random sample of zip codes returned no sex offenders in these states.




U.S. Department of Justice                                                            85
Office of the Inspector General
Evaluation and Inspections Division
                           APPENDIX VI: FBI RESPONSE




U.S. Department of Justice                             86
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            87
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            88
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            89
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            90
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX VII: OIG ANALYSIS OF FBI RESPONSE


      The Office of the Inspector General provided a draft of this report to the
Federal Bureau of Investigation for its comments. The FBI’s response is
included in Appendix VI of this report. The OIG’s analysis of the FBI’s
response and the actions necessary to close the recommendations are
discussed below.

      Recommendation 1. The FBI should ensure NSOR has more
complete and accurate information by designing and implementing a new
audit of jurisdiction registries’ compliance with FBI NSOR procedures and
with the SORNA guidelines.

       Status. Resolved – open.

      Summary of the FBI Response. The FBI concurred with this
recommendation and stated that its Criminal Justice Information Services
Division is scheduled to re-implement an audit to ensure the accuracy,
completeness, and validity of NSOR records populated by states and territories
in October 2009.

       OIG Analysis. The actions planned by the FBI are responsive to our
recommendation. So that we may close this recommendation to ensure the
accuracy, completeness, and validity of NSOR records, please provide the OIG
with the audit’s instrument and confirmation that the new audit of jurisdiction
registries’ compliance with FBI NSOR procedures and with the SORNA
guidelines has been implemented by October 30, 2009.

      Recommendation 2. The FBI should implement the Advisory Policy
Board-approved changes to NSOR that specifically provide information
regarding fugitive status.

       Status. Resolved – open.

       Summary of the FBI Response. The FBI concurred with this
recommendation and stated that the Director of the FBI approved the creation
of a new sex offender status field within NSOR in May 2007. The new field is
scheduled to be implemented in August 2009. The FBI stated that this
enhancement to NSOR will give states and territories a better way to indicate a
sex offender’s registration or fugitive status.

      OIG Analysis. The actions planned and taken by the FBI are responsive
to our recommendation. So that we may close this recommendation, please

U.S. Department of Justice                                                 91
Office of the Inspector General
Evaluation and Inspections Division
provide the OIG with confirmation that the sex offender status field within
NSOR is operational by August 28, 2009.

      Recommendation 3. The USMS should obtain NSOR and the NCIC
Wanted Persons File data downloads from the FBI and use that
information to manage and conduct fugitive sex offender investigations.

       Status. Resolved – open.

       Summary of the FBI Response. The FBI concurred with this
recommendation and stated that it has received a letter from the USMS dated
November 3, 2008, requesting such a data download. The FBI stated that its
Criminal Justice Information Services Division is in the process of responding
to the USMS’s data request and that it will provide the USMS with data
downloads of the NCIC Wanted Person File upon request from the USMS.

      OIG Analysis. The actions planned and taken by the FBI are responsive
to our recommendation. So that we may close this recommendation, please
provide the OIG with a description of the method by which the FBI will transfer
data to the USMS and confirmation of the first transfer of NSOR and NCIC
Wanted Person File data from the FBI by June 5, 2009.




U.S. Department of Justice                                                92
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX VIII: OJP RESPONSE




U.S. Department of Justice                              93
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            94
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX IX: OIG ANALYSIS OF OJP RESPONSE


      The Office of the Inspector General provided a draft of this report to
the Office of Justice Programs for its comments. OJP’s response is included
in Appendix VIII of this report. The OIG’s analysis of the OJP’s response is
discussed below.

       Summary of the OJP Response. OJP agreed with the contents of
the report as they relate to OJP’s SMART Office, and provided clarifications
on two statements in the draft. First, OJP responded to footnote 41[now
footnote 40, page 30]. The footnote states that, “The Executive Director for
the National Congress of American Indians said the SMART Office’s Sex
Offender Registration and Notification guidelines provide no indication of
the process that will be used to assess tribal compliance.” OJP stated that
the SORNA guidelines clearly state that once a tribe files a resolution to
become a registration jurisdiction, the tribe is under the same obligations as
a state and that tribal compliance will be based on the same substantial
compliance standards as set out in the guidelines. Second, OJP responded
to the third paragraph on page 59 of the report, which stated, “For sex
offender registries to be helpful, it is important that they provide the
information the public needs to assess the threat posed to them by different
sex offenders. Victim information could be useful for this purpose because
sex offenders often have victim preferences.” OJP agreed with these
statements, but said that it is important to note that an offender with a
preference may deviate from that preference for any number of reasons.

       OIG Analysis. The OIG made minor edits to the draft report to
incorporate some of OJP’s clarifying statements. Regarding OJP’s comment
on footnote 41 [now footnote 40, page 30], written testimony provided by the
National Congress of American Indians (NCAI) on July 17, 2008, before the
United States Senate Committee on Indian Affairs presented NCAI’s
concerns regarding the procedure for addressing tribal compliance.
Specifically, the tribes were concerned over the Attorney General’s authority
to delegate a tribe’s authority under SORNA to the state if the Attorney
General determined that a tribe is not in compliance with the Act. The NCAI
described this delegation of authority as having “potentially serious
consequences” and further stated that “the DOJ guidelines provide no
indication of the process that will be used by the Attorney General to assess
tribal compliance and make this delegation.” Although we incorporated
OJP’s statement that tribal compliance will be assessed in the same manner
as states and territories, this does not fully respond to the concerns raised
by the NCAI.


U.S. Department of Justice                                                95
Office of the Inspector General
Evaluation and Inspections Division
                        APPENDIX X: USMS RESPONSE




U.S. Department of Justice                          96
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            97
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            98
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            99
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX XI: OIG ANALYSIS OF USMS RESPONSE


      The Office of the Inspector General provided a draft of this report to
the United States Marshals Service (USMS) for its comments. The USMS’s
response is included in Appendix X of this report. The OIG’s analysis of the
USMS’s response and the actions necessary to close the recommendations
are discussed below.

      Recommendation 3. The USMS should obtain NSOR and the NCIC
Wanted Persons File data downloads from the FBI and use that
information to manage and conduct fugitive sex offender
investigations.

       Status. Resolved – open.

       Summary of the USMS Response. The USMS agreed that records
from NSOR and the Wanted Persons File can be used to identify for
investigation suspected fugitive sex offenders as well as sex offenders who
may be out of compliance with sex offender registration requirements.
Therefore, the USMS concurred with this recommendation and provided a
letter dated November 3, 2008, which it had sent to the FBI requesting
records from NSOR and the NCIC Wanted Persons File. The USMS stated
that details of the information-sharing process have yet to be worked out
and that a memorandum of understanding will be required between the
USMS and FBI specifying the terms and conditions for sharing these
records. The USMS also stated that sharing the records will require system
modifications and the acquisition of analytical software and related
resources. The USMS could not provide a completion date for establishing a
method to receive and use the data from the FBI in support of sex offender
investigations, but estimated that it could occur in mid-2009 or before.

       OIG Analysis. We believe that the actions planned and taken by the
USMS are responsive to our recommendation. For the OIG to close this
recommendation, by June 5, 2009, the USMS must provide the OIG with:
(1) a copy of the memorandum of understanding between the USMS and
FBI, (2) a description of the method by which the USMS will receive data
from the FBI, (3) confirmation of the first transfer of NSOR and NCIC
Wanted Person File data from the FBI, and (4) a description of how the
USMS will use the data to manage and conduct fugitive sex offender
investigations.




U.S. Department of Justice                                             100
Office of the Inspector General
Evaluation and Inspections Division
